<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                       WEDNESDAY, MARCH 31, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Stevens, and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF HON. WILLIAM H. PICKLE, SERGEANT AT ARMS
ACCOMPANIED BY:
        KEITH KENNEDY, DEPUTY SERGEANT AT ARMS
        CHRIS DEY, CHIEF FINANCIAL OFFICER

           OPENING STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The subcommittee will come to order. We 
meet this afternoon to take testimony from Senate Sergeant at 
Arms Bill Pickle, and the Capitol Police Board, currently 
chaired by House Sergeant at Arms Bill Livingood and the Chief 
of Police Terrance Gainer.
    We will first hear from the Sergeant at Arms. Mr. Pickle is 
accompanied by the Deputy Sergeant at Arms, Keith Kennedy, and 
his Chief Financial Officer, Chris Dey, along with a team of 
others. We welcome you here today.
    The Sergeant at Arms' budget request totals $187 million, a 
3 percent increase over last year. This modest overall increase 
reflects the final year of funding for several major projects 
in fiscal year 2004, such as the recording studio project and 
the digital technology migration project. Your salary budget, 
as I understand it, would increase about 10 percent over fiscal 
year 2004.
    Following the Sergeant at Arms, we will take testimony on 
the Capitol Police budget. The Capitol Police request totals 
$291.6 million and total of 2,361 staff, which is a large 
increase, 33 percent over the fiscal year 2004 appropriation. 
That one will be a little tougher to deal with.
    In addition to the Capitol Police's own appropriation, $40 
million is included in the Architect's budget for the Capitol 
Police buildings and grounds, including a new firing range and 
an off-site delivery facility.
    We will need to make some tough choices this year, as all 
of us know, but I look forward to hearing your testimony. I 
might tell you that I did read your testimony so you do not 
need to read it again to me. I can read most of the words, and 
if you will abbreviate that would be fine with me. I'd like to 
turn it to a ranking member, Senator Durbin.

                       SENATOR DURBIN'S STATEMENT

    Senator Durbin. Thank you very much, Senator Campbell. I 
ask that my entire statement be made part of the record.
    Senator Campbell. We will put it in the record.
    Senator Durbin. And I'd like to commend Mr. Pickle; he did 
an excellent job with a very, very difficult assignment on the 
computer theft which we experienced in the Senate Judiciary 
Committee. I thought you demonstrated professionalism, non-
partisanship, just what we expect from you.
    Mr. Pickle. Thank you.
    Senator Durbin. I commend you for that and all of those who 
worked with you. It was an exceptional effort with a very, very 
difficult assignment. I'll be asking a few questions about that 
when I get the opportunity.

                           PREPARED STATEMENT

    Chief Gainer, good to see you again, along with the Capitol 
Police. And thank you and all of the men and women who serve us 
so well, put their lives on the line every day for us here at 
the Capitol.
    Chief Gainer. Thank you, Mr. Chairman.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's budget 
oversight hearing on the Senate Sergeant at Arms and the U.S. 
Capitol Police Board.
    First of all, I want to thank our witnesses, Mr. Pickle, 
Mr. Livingood, and Chief Gainer for joining us today to review 
your fiscal year 2005 budget requests.
    Mr. Pickle, last November when I discovered that some 
documents stored on my Judiciary Committee staff's computers 
were taken from them and published in the Wall Street Journal, 
I asked you to begin a Sergeant at Arms investigation into the 
potential security breach. You did so almost immediately. Your 
staff--including Capitol Police--worked around the clock to 
secure the committee's computer servers to preserve the 
evidence and interviewed dozens of staff.
    I want to commend you for the professional and expeditious 
way that you have handled the investigation, and your 
willingness, as demonstrated in the report, to follow the facts 
wherever they led you.
    However, during your investigation, you came to realize 
that all of the Senate committees' systems were set up in 
essentially the same way, with similar vulnerabilities in 
place. I hope that very aggressive steps are being taken to 
assure that this does not happen again.
    On another note Mr. Pickle, I had the opportunity to meet 
with Greg Hanson of your staff last week to discuss the 
technology available to us here in the Senate. It was very 
informative and I appreciated his updating me on this issue. As 
you know, I'm concerned that we are behind the House when it 
comes to technology. With the increased use of the internet, 
our constituents are able to get in touch with us much more 
quickly and easily. In my office, we receive close to a million 
emails a year. We need to be able to come up with a system that 
allows us to respond to this volume of email in a timely 
matter.
    In this regard, I noticed in your fiscal year 2005 request 
that you are asking for $10.3 million for three-year funding 
for purchase of computer equipment. I'd like to hear a little 
more about that.
    I hope you will address the current status of the perimeter 
security upgrades. I'm interested to know if this project is on 
schedule and on budget.
    I'd also like to hear about the status of the proposed Mail 
Processing Facility/Warehouse and whether a site has been 
selected to house this facility.
    I hope you will talk a little bit about the security 
upgrades for our state offices and when we can expect to see 
these upgrades occur.
    Overall your request of $186.6 million, or 3.1 percent, 
seems quite reasonable. We all know how difficult this year is 
going to be in terms of funding.
    I read in your testimony that there are plans in place to 
distribute emergency supply kits to all Senate offices. I hope 
you will talk a little about the contents of these kits and 
when our offices will be receiving them.
    Chief Gainer, welcome. It is good to see you again. I see 
that your fiscal year 2005 budget request is $291.6 million, an 
increase of 33 percent. I'm glad that you have provided us with 
a detailed prioritization of your request. I know that this 
will come in handy a little later on when we start to make some 
decisions with regard to funding.
    There have been several organizational changes made at the 
Capitol Police since our last hearing. I hope you will describe 
for the subcommittee the changes you have made, why you have 
made them and how they relate to particular goals or objectives 
in your strategic plan.
    I noted in your statement that in January your department 
started a Diversity Training Program. I hope you will tell us 
more about this training and when you expect it to be complete.
    I have noticed on many occasions that the lines to get into 
the Dirksen and Hart Buildings are quite lengthy. It seems 
there should be a better way to get both staff and visitors 
through security and into the buildings without them having to 
wait in such long lines.
    I hope you will update us on the progress of procuring an 
off-site delivery facility. I understand that you might co-
locate this facility with the Sergeant-at-Arms' Mail Processing 
Facility.
    I understand that the Capitol Police and FLETC are working 
together on a solution that would allow the Capitol Police to 
have adequate use of the firing range in Cheltenham, Maryland, 
thus eliminating the need to procure one of your own. I hope 
you will elaborate on that for the subcommittee.
    I am interested in your thoughts on the idea of a security 
fence around the Capitol and office buildings.
    Thank you Mr. Chairman.

    Senator Campbell. Mr. Pickle, why don't you go ahead.

                 SUMMARY STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. Thank you, Mr. Chairman, and thank you for 
those kind words, Senator. We appreciate that.
    Mr. Chairman, actually, some of your remarks stole my 
thunder here. I had some informal remarks to make but I'm going 
to cut right through most of them. I'd like to submit a formal 
statement for the record.
    Senator Campbell. It will be included in the record.
    Mr. Pickle. And what I would like to affirm is we are 
asking for about a 3.1 percent increase in our budget. It is 
modest but it is important that we get this funding to complete 
some of the many programs and security enhancements that we 
have begun with the approval and the support of this committee 
over the previous years. As you mentioned, some of them are 
very important to us. The security upgrades for Members' 
offices, the alternate computing facility, the computer network 
security and in particular the secure mail and package 
processing protocols in our warehouse are very important to us 
this year for all the obvious reasons.
    Last year, when I testified before this committee, I made 
the statement that I was very honored and pleased to have been 
elected as the 37th Senate Sergeant at Arms. I also discussed 
with the committee that my goals, and indeed the entire 
Sergeant at Arms' Office, our goals are to provide the very 
best customer service we could here to the Senate, as well as 
the very best security and emergency preparedness. And what we 
hoped to do last year was to meld and use or leverage 
technology to do even a better job and be as efficient and as 
effective as we possibly could. Well, this year our goals 
remain the same; we've come a long way but we have a lot more 
to do. Security continues to be paramount, as it has since the 
anthrax scare of 2001.
    We have had a very challenging year, as Senator Durbin 
said; we had something occur that is rather unprecedented for 
the Sergeant at Arms Office to participate in and that was the 
matter of improper access to the Judiciary Committee computers. 
It was unprecedented in the sense that we are not staffed to 
conduct such an investigation. While the Sergeant at Arms is 
the chief law enforcement officer of the Senate, he really does 
not have the operational personnel or resources to do this. But 
thankfully we had the Capitol Police; we also went to the 
United States Secret Service and with the support of this 
committee, which was involved with us when we talked about the 
funding that would be needed to do the work, we completed the 
investigation. And I too am very proud of our staff. I think 
what it shows is that we are a very diverse organization, we 
have some very talented people, and I'm just so proud of the 
work that they did in this area.
    The other challenge we had this year was the ricin attack 
on February 3, 2004. Now, this was the second attack that's 
occurred here in the past 3 years. The anthrax scare of 2001 
shut down a Senate building for several months. Fortunately, 
this time, because of the response of the Capitol Police and 
the Sergeant at Arms Office of Emergency Preparedness, along 
with our colleagues and the other entities here, we were able 
to get the Senate office buildings back up and running within 5 
days. Now, as much as I'd like to take some credit for that, I 
think credit really belongs to my predecessor, Al Lenhardt, the 
former Sergeant at Arms. Al was confronted shortly after he 
arrived here with the anthrax attack and because of his efforts 
we have in place a very sound architecture and many sound 
security protocols that allowed us to be very successful in 
dealing with this ricin attack. I think the fact that it was 
only 5 days speaks well for the preparations of this body. It 
also speaks well for this committee which has supported us as 
well as the Rules Committee which was there to help out.
    I know I'm dwelling only on security and technology, but 
finally I want to close by making just a comment. We have over 
800 people here in the Sergeant at Arms Office, and when you 
look at the Sergeant at Arms Office, my analogy is the Senate 
is like a small city or mid-size corporation. We have about 
8,000 people who work here on the Senate side, and on any given 
day we have many thousands more who are tourists, guests, 
official visitors, so we have all the components of a city 
here. I think we have several dozen different little businesses 
within our office. The people who do the work and who make this 
place run, day in and day out, and who are invisible to all of 
us are the ones who really need to be thanked for their hard 
efforts this year. And I'm talking about people such as our 
facilities maintenance people who keep the Capitol clean, and 
it's always spotless in the morning when you come in; our 
furniture makers who make sure all the furniture and woodwork 
we have is just topnotch, and our communications people, who 
comprise most of our staff. These people do the job day in and 
day out, and I'm just so proud of them.

                           PREPARED STATEMENT

    With that, Mr. Chairman, I'm going to dispense with 
anything else. And I'll just be happy to take questions. Thank 
you.
    [The statement follows:]

                Prepared Statement of William H. Pickle

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before the Committee on Appropriations. I am pleased to 
come before you today to report on the progress the Office of the 
Sergeant at Arms (SAA) has made over the past year and our plans to 
enhance the capabilities of the Senate in the coming year.
    The SAA respectfully requests for fiscal year 2005 a total budget 
of $186,701,000, which is an increase of $5,669,000 or 3.1 percent over 
the fiscal year 2004 budget. This increase will enable the office to 
maintain the significant improvements and level of service we provided 
the Senate community over the past year.
    This fiscal year 2005 budget request will fund the completion and 
support of several initiatives that are already in progress, including 
security upgrades for Members' state offices, the Alternate Computing 
Facility (ACF), enhanced communication services, secure mail and 
package processing protocols, and computer network security.
    Last year I testified before this Committee and identified two 
priorities: (1) ensuring the United States Senate is as secure as 
possible and prepared for any emergency; and (2) accomplishing this 
goal through outstanding service and support, including the enhanced 
use of technology. The work of this office over the past year has been 
guided by these priorities.
    In addition to the projects the SAA had planned to undertake and 
invest in this past year, we faced unique challenges requiring that 
resources be used to meet immediate, unanticipated needs. The ricin 
incident and the Judiciary Committee's request to conduct an internal 
investigation are two examples of such challenges. This testimony will 
detail later the work of the SAA staff in responding to the ricin 
incident.
    The Committee on the Judiciary's request for the Sergeant at Arms 
to conduct an internal investigation into whether there was 
unauthorized access to the Committee's computer system was 
unprecedented. We were able to respond quickly to this request and to 
assemble an investigative team that included trained investigators 
detailed from the U.S. Secret Service and outside forensic experts. The 
sensitive nature of this matter required almost full-time involvement 
of several of our senior managers. The investigation and forensic 
analysis took almost four months and required a significant amount of 
personnel and financial resources.
    In our response to the ricin incident and the investigation for the 
Judiciary Committee, we met the needs of the Senate and accomplished 
the tasks set before us. In the past year we have also moved forward in 
a number of crucial areas.
    An outstanding senior management team led the efforts of the SAA's 
dedicated staff over the past year. This team consists of Deputy 
Sergeant at Arms J. Keith Kennedy, Assistant Sergeant at Arms for 
Security and Emergency Preparedness Chuck Kaylor, Assistant Sergeant at 
Arms for Police Operations Al Concordia, Assistant Sergeant at Arms for 
Operations and Administrative Assistant Rick Edwards, General Counsel 
Lynne Halbrooks, and Assistant Sergeant at Arms and Chief Information 
Officer J. Greg Hanson. This team has worked to develop and implement a 
comprehensive approach to Senate projects. The many accomplishments set 
forth in this testimony would not have been possible without their 
leadership and commitment.
    This testimony highlights some of our achievements over the past 
year, and demonstrates how we plan to build on our accomplishments and 
to protect the Senate's interests. Specifically, this testimony 
identifies (1) the security measures we have implemented and are 
working toward; (2) initiatives designed to keep the Senate at the 
leading edge of technology; and, (3) highlights of the critical 
operational support we offer the Senate.

         A COMPREHENSIVE APPROACH TO SECURITY AND PREPAREDNESS

    I am pleased to report that in the areas of security and emergency 
preparedness we expanded on the significant accomplishments of my 
predecessors, and particularly on the strong foundation that Sergeant 
at Arms Alfonso E. Lenhardt implemented to protect the Capitol and 
Senate Office Buildings after the anthrax attack in 2001.
    The Senate now has in place an overall security strategy that 
establishes a layered defense based upon our understanding of threats 
to the Capitol and its vulnerabilities. Over the past year, this 
strategy led to updated security plans, created prevention and 
protection programs, and created life-safety, emergency preparedness, 
and information security programs. The strategy also led to training to 
educate staff and exercises to rehearse and evaluate our plans.
    The SAA has relied on the strong support of the Secretary of the 
Senate, this Committee, the Committee on Rules and Administration, and 
other Committees and Members to advance the Senate's security and 
emergency preparedness. A comprehensive approach to these critical 
subjects has required the partnership and cooperation of Senate 
offices, the U.S. Capitol Police, the Attending Physician, other 
legislative branch offices, as well as federal and state agencies.
    Together, we have made significant progress on our security and 
emergency preparedness.
    Despite the substantial advances in security and emergency 
preparedness since September 2001, and particularly this past year, we 
cannot become complacent. The Capitol and Congress remain targets to 
those wishing to cause our country harm, and the means to cause that 
harm are available, varied, and growing in sophistication. We need to 
be vigilant, and we need to continue our comprehensive, forward-looking 
security and emergency preparedness programs.
    This testimony outlines the SAA's security, emergency preparedness, 
and continuity of operations and government efforts. In addition to the 
initiatives set forth below, there are other steps being taken to 
secure Congress and the Senate community that are not appropriate to 
address in an open forum.

Vulnerabilities and Threat Assessments
    Understanding the threats the Senate faces is essential to 
establishing appropriate and cost-effective security programs. We work 
with the U.S. Capitol Police on an aggressive approach to security that 
recommends and supports ongoing security projects. We are participating 
in several studies that address vulnerabilities around the Capitol 
relating to land-based and airborne threats, as well as chemical, 
biological, and radiological threats. The SAA also works with the U.S. 
Capitol Police to provide analysis of emerging global threats, current 
intelligence information, analysis of vulnerabilities, and available 
countermeasures. As a result of this work, policies are being developed 
in conjunction with the U.S. Capitol Police that provide high levels of 
protection on Capitol Hill for Members, staff, and visitors. These 
coordinated efforts with respect to vulnerability and threat assessment 
include:
    Vulnerability Assessments.--Since 1998, the U.S. Capitol Police 
Board has conducted seven formal vulnerability assessments of the 
Capitol complex. These assessments serve as the basis for many of our 
protective measures. The assessments complement our work with the 
National Capital Region intelligence sharing initiatives for a complete 
view of the threats to the Capitol.
    Command Center.--Over the past year, the U.S. Capitol Police have 
established a state-of-the-art command center and campus-wide security 
network that significantly improve their situational awareness. This 
provides information in a number of areas, which enables the police to 
better understand an event and better manage the necessary response. 
SAA staff work closely with the Capitol Police at the Command Center 
during emergencies.
    Threat Intelligence Sharing.--The U.S. Capitol Police Board has 
approved the U.S. Capitol Police participation in the Targeted Violence 
Information Sharing System (TAVISS), a pilot program for sharing threat 
intelligence information. Created by the U.S. Secret Service to 
facilitate the sharing of threat information with twenty-seven 
agencies, this program will provide timely information about threats 
against Members of Congress and U.S. Government officials. Research has 
shown that people who attack public officials often switch targets, so 
subjects who come to the attention of one agency may be known to other 
agencies.
    To provide more intelligence information, the U.S. Capitol Police 
have officers assigned to critical National Capital Region intelligence 
collection and analysis and command centers. The U.S. Capitol Police 
also have a small but highly professional intelligence staff that 
collaborate with their counterparts, and participate in the national 
forums that provide the situational awareness we need.
    Air Security.--The U.S. Capitol Police are integrated fully in 
interagency air security coordination planning for the National Capital 
Region and the National Capital Region Coordination Center. This 
planning integrates multi-agency assets into a protective air security 
system that encompasses the Capitol. The National Capital Region Air 
Security Plan focuses on countering terrorist threats from the air. The 
coordination uses multi-agency capabilities that involve intelligence, 
law enforcement, and Department of Defense assets. Early warning and 
situational awareness has:
  --Enhanced detection of potential air threats.
  --Improved dissemination of inter-agency intelligence information.
  --Streamlined coordination of multi-agency assets to achieve command 
        and control.
  --Differentiated navigational errors and civil violations from 
        hostile intent.
The threat environment is always changing, but we have the people and 
organizations in place that understand the needs of the Senate and can 
provide the information necessary to ensure the continued security of 
Members, staff, and visitors.

Protecting the Senate's Physical Assets
    The first priority of the SAA's security strategy is to deter or 
prevent an incident. Our expanding protective measures program includes 
physical security measures, electronic systems, and law enforcement 
activities. It continues to improve the Senate's ability to prevent 
incidents. Many of the details of this program are confidential and 
sensitive. However, several of the significant protective measures that 
have been implemented are set forth below.
    Enhanced Perimeter Security Plan.--The first phase of the perimeter 
security plan, proposed in 1998, was completed in 2002. The Enhanced 
Perimeter Security Plan, developed after September 2001, is now being 
implemented. The Enhanced Perimeter Security Plan features pop-up 
barriers and bollards, hardened police kiosks, improved security at 
vehicle access checkpoints, increased U.S. Capitol Police roving 
patrols, and other enhancements. It also includes improved screening 
procedures for visitors entering the Senate Office Buildings and the 
Capitol. The Capitol Police Board is working to establish more 
comprehensive and visible identification protocols to manage visitors 
better, particularly in the Capitol.
    Capitol Visitor Center.--The Capitol Visitor Center remains an 
important focus of our security program. In 2000, almost three million 
people visited the Capitol and during peak season over 18,000 people 
visited the Capitol each day. In addition, delivery vehicles move tons 
of equipment, food, and other material into and out of the Capitol 
every day. These deliveries are essential to Congressional operations, 
but they also create risks to the Capitol complex. The Capitol Visitor 
Center will improve our ability to screen everything and everyone 
coming into the Capitol, and will enhance the public's access and 
experience while visiting the Capitol.
    The Visitor Center will include a remote delivery-vehicle screening 
facility for all deliveries to the Capitol. The facility will make it 
easier to deliver goods to the Capitol and safer to accept those goods. 
The design incorporates blast-resistant features and systems that will 
minimize the risk of airborne hazards within the Capitol Visitor Center 
and the Capitol.
    Once the Visitor Center is completed, the public will have just as 
much access to the Capitol, only through fewer access points. There 
will be enhanced screening and control of everyone and everything that 
enters the building. Screening will take place in the Visitor Center 
instead of near the Capitol doors, and, because of the design of the 
access points, the screening will make it easier to isolate and remove 
individuals who pose a security threat.
    Parking and Traffic Management.--Construction of the Capitol 
Visitor Center, the implementation of the Perimeter Security Plan, and 
other construction activities have created parking and traffic 
management challenges.
    To address the parking challenges, we made use of our existing 
resources and created 359 parking spaces proximate to the Capitol and 
Senate Office Buildings. This saved lease expenses of $1 million 
annually, or approximately $2 million to date. The parking is secure, 
near the Capitol, and convenient for Senators and staff.
    Because the traffic that flows past the Senate Office Buildings and 
the Capitol directly affects the security of the Senate, the SAA staff 
worked with the Architect of the Capitol, the U.S. Capitol Police, and 
the District of Columbia's Department of Transportation to ensure the 
safety of Members, staff and visitors to the Senate and simultaneously 
minimize the traffic impact of construction projects. Much of the 
construction is limited to nights, weekends, and off-peak hours to 
reduce the impact on traffic. The direction of one-way traffic is 
shifted to accommodate commuting in the morning and evenings. U.S. 
Capitol Police officers are stationed at major intersections to 
maintain traffic control and pedestrian safety.
    State Office Security.--While many of the recent security efforts 
focus on Capitol Hill, Members' state offices continue to be a focus 
for the SAA. During the past year and a half, SAA staff have conducted 
comprehensive, on-site security assessments of the 430 state offices. 
Besides completing assessments of existing offices, a system has been 
implemented to assess each newly-established office.
    The assessments provide the SAA an understanding of each state 
office's security needs and enable us to make recommendations, help the 
state office prioritize its needs and, ultimately, improve security. 
Each Member's Washington, D.C., office has the results of their state 
office assessments and the SAA's recommendations. We are working with 
each office to determine how to proceed to implement appropriate 
physical security upgrades.
    This state office security project involves physical modifications 
to offices, installation of physical security systems in offices, and 
staff training. It is ongoing and multi-year, and the initial focus has 
been on state offices in commercial spaces. The Federal Protective 
Service and the Federal Marshals have been consulted regarding Members' 
offices in federal and court buildings.

Emergency Preparedness
    To enhance the Senate's emergency preparedness, the SAA is 
addressing all aspects of preparing for, learning about, and responding 
to emergencies. Over the past year, the SAA has established 
notification systems, conducted training, and provided emergency 
response equipment and resources. SAA staff has also worked closely 
with the Architect of the Capitol and the U.S. Capitol Police to test 
and, where necessary, upgrade the alarms, emergency equipment, and 
notification systems in every Senate Office Building.
    The Senate continues to improve evacuation and assembly area 
accountability procedures by regularly conducting evacuation drills. 
The SAA has also worked with Senate offices to update the procedures 
for evacuating mobility-impaired staff and visitors. This outreach to 
our special needs community will continue next year.
    To maintain the focus on life-safety and emergency procedures, the 
SAA meets weekly with the U.S. Capitol Police, the Superintendent of 
the Senate, and the Capitol Fire Marshal to review life-safety programs 
and issues. This has resulted in better emergency equipment access to 
the Capitol Plaza and closer involvement by the Washington, D.C., Fire 
Department during evacuation drills. The SAA also is engaged with the 
National Capital Region's emergency management experts through a number 
of high-level interagency and intergovernmental committees and work 
groups that expand the National Capital Region's preparedness.
    Highlights of the SAA's efforts to better prepare the Senate 
community for an emergency include:
    Alert and Notification Systems.--In the past two years, the Senate 
provided BlackBerry devices and updated electronic pagers to Senators 
and key staff. The number of BlackBerry devices in use at the Senate 
continues to expand. Every office has a Senate ``Group Alert'' 
telephone system and approximately 1,000 telephones throughout the 
Senate are connected to the System.
    Last year, wireless annunciators were added as a component of the 
emergency notification system. These wireless devices have been placed 
in every office. The U.S. Capitol Police use the annunciators to 
provide audible alerts of an incident, instructions on appropriate 
action, and additional information as an event unfolds. Annunciators 
supplement the Group Alert telephone system, the building fire alarms, 
the public address system, and other emergency notification devices.
    The SAA is in the process of testing a newly installed, more 
capable automatic voice and text notification system that supplements 
the existing U.S. Capitol Police Dialogic system. Once this system is 
fully operational, it will be able to automatically call and send text 
alerts to predesignated individuals more quickly than in the past.
    Training.--Over the past year, the SAA created and delivered 
training courses that cover a wide range of emergency preparedness 
issues. There have been 172 training sessions providing life-safety 
information to over 5,700 individuals. This training included: in-
office sessions tailored to the emergency preparedness needs of each 
office, new staff and intern orientations that review emergency systems 
and procedures for all new staff, monthly emergency preparedness 
updates, and off-site training on the use of fire extinguishers.
    Special topic seminars were conducted by SAA staff on evacuating 
Washington, D.C., evacuating people with disabilities, and sheltering 
in place. Training was also conducted for U.S. Capitol Police officers 
and Senate office personnel regarding evacuation procedures for 
mobility-impaired staff members. And, in coordination with the U.S. 
Capitol Police, the SAA helped train 6,770 individuals about the proper 
use of escape hoods. This training gives every participant the chance 
to don a training hood.
    Emergency Equipment.--Almost 19,000 escape hoods, which provide 
protection against airborne hazards, are deployed in Senate offices and 
at cache sites throughout the Capitol and in Senate Office Buildings. 
Last year, hoods were distributed to every office. This year, escape 
hood cache locations were established in restaurants, hallways, near 
elevators, in the Capitol, and other public areas. These cache 
locations are quickly accessible to staff and visitors. This past year 
the SAA conducted the first full inventory of all the escape hoods 
issued to offices. Over the next year, options will be evaluated for 
replacing the escape hoods in anticipation of replacing the current 
hoods at the end of their shelf life in fiscal year 2006.
    Last fall, in consultation with Senate offices, the SAA developed 
an emergency supplies kit that will be useful to offices in any 
emergency. The SAA plans to issue the kits and provide training to the 
Office Emergency Coordinators this spring.

Continuity of Operations and Government
    This past year the SAA and the Secretary of the Senate developed 
and published the Senate Continuity of Operations and Continuity of 
Government Planning Guide that provides strategic guidance and a 
framework for developing comprehensive, integrated Senate Continuity of 
Operations and Continuity of Government plans. The SAA and Secretary of 
the Senate worked closely with all affected legislative branch agencies 
to ensure the plans, which are part of each office's emergency plan, 
are supportable and coordinated. Other initiatives the SAA has been, 
and will continue to be, involved in that are designed to meet the need 
for strong continuity of operations and continuity of government 
planning include:
    Senate Office Planning.--The SAA participates in the review and 
update of the Senate's Continuity of Operations plans each Congress. 
Most Member and Committee offices now have their own Continuity of 
Operations plans in place. They have established alternate operating 
sites, have laptops and other equipment for these sites, and have 
backed up their essential data and other records so the sites are ready 
to use. Many offices activated their plans during the ricin incident 
and are now improving those plans. The SAA will continue to help 
offices prepare, review, and update their internal plans and 
procedures.
    The SAA's Continuity of Operations planning support was extended to 
state offices this past year through a Web-based planning software 
application. The application helps Members' state offices create their 
plans, and enables Members' Administrative Managers to oversee those 
plans to ensure they fit within the office's overall office Continuity 
of Operations plan.
    Briefing Centers and Alternate Chamber.--The Senate has established 
Briefing Centers and Alternate Chamber locations for use in emergency 
circumstances. Over the past year, the SAA continued to enhance its 
ability to support these locations, as well as Member office and 
Committee operations. During this time, two Briefing Centers were 
completed. The Centers provide temporary, protected locations where the 
Senate can account for membership; where Leadership, Senate Officers, 
and the U.S. Capitol Police can communicate with Senators; and where 
communications capabilities are available to Senators. A third Briefing 
Center is nearing completion.
    Two years ago, a primary Alternate Chamber was established on 
Capitol Hill. Final modifications to that facility were made this past 
year and it is fully operational. A secondary Alternate Chamber 
location has also been selected off Capitol Hill. This facility is 
available now and final modifications are being made. Work to establish 
a second Alternate Chamber site off Capitol Hill will continue this 
upcoming year.
    Exercise of Emergency Plans.--This past year was the second full 
year of an active program that ensures that we regularly rehearse and 
evaluate all aspects of our emergency plans. The SAA's exercise program 
focuses on evaluating new facilities and capabilities as they become 
available. In the first year, the ability to activate, relocate to, and 
operate out of our primary Briefing Center and the Capitol Hill 
Alternate Chamber location was tested.
    This past year, exercises were conducted for using a second 
Briefing Center location and the off-site Alternate Chamber. These 
exercises included tabletop reviews of all aspects of the plans and 
procedures, and full exercises of the facilities. They included the 
U.S. Capitol Police Command Center and the Sergeant at Arms and 
Secretary of the Senate's Emergency Operation Center. The exercises 
also tested the transportation to each facility, support of each 
facility, and communications between the facility and the Command and 
Operation Centers. The program exercises life-safety responses as well 
as emergency operations. A similar protective measures exercise of the 
Senate Chamber was also conducted recently.
    This upcoming year, the operations of the Emergency Operations 
Center will be exercised and a tabletop exercise of the Alternate 
Computing Facility will be conducted. In addition, quarterly evacuation 
drills and monthly tests of the emergency communications systems will 
continue.

The Ricin Incident
    The discovery of ricin in the Dirksen Senate Office Building on 
February 2, 2004, brought to test the emergency planning work done by 
the Senate in the last two years. The response was a collaborative 
effort. SAA staff worked with the U.S. Capitol Police, the Committee on 
Rules and Administration, the Office of the Secretary, the Office of 
the Attending Physician, and numerous other agencies and organizations, 
to support Senate operations even though all three Senate Office 
Buildings were closed.
    The closure of the Senate Office Buildings required the activation 
of the SAA Continuity of Operations plan to support Senate, Member, and 
Committee operations. In cooperation with the Secretary of the Senate 
and Committee for Rules and Administration, the SAA established limited 
alternate space and services for Member and Committee operations. By 
the morning of February 4, 2004, space and operating capabilities were 
available for all Member and Committee offices that needed it. Offices 
were able to borrow equipment they needed from the SAA. Information 
hotlines and backup systems worked well under the circumstances. 
Assistance was also provided to Member offices to transfer their 
telephones to other offices to ensure constituents' calls were 
answered.
    The support of the Committee on Appropriations was instrumental in 
implementing the systems and processes that helped the Senate respond 
successfully to this ricin event. Because redundant technology was 
available, the Senate offices were able to continue to conduct business 
even when they were unable to access their offices.
    The feedback we received during and after the response to the 
incident will help improve our response to future incidents. Of primary 
concern is the need to improve notification processes and procedures. 
This incident demonstrated that a solid technical infrastructure is in 
place to ensure timely notifications, but the processes and procedures 
need improvement. We will continue to work with the U.S. Capitol Police 
and the Senate community to ensure effective notification in the event 
of an emergency.
    Following the ricin incident, it was necessary to implement new 
mail processing procedures. Over two years ago, the Legislative Branch 
Mail Task Force (consisting of representatives from the scientific and 
medical communities, the United States Postal Service, security 
experts, and agencies within the legislative branch) established a mail 
processing system to treat and test all mail coming into the Congress. 
The discovery of ricin in the Majority Leader's office in February 
mandated the need for additional protective measures in our mail 
processing. Science advisors and the Legislative Branch Mail Task Force 
recommended that envelopes and packages be opened, examined, and tested 
for contaminants at an off-site location. With the approval of the 
Senate Leadership, these new mail processing protocols were quickly 
implemented.
    Overall, the response to the ricin incident is encouraging. The 
Senate Office Buildings were reopened within 5 days. The response truly 
was a team effort and demonstrated the importance of preparing for 
emergencies to ensure continuity of operations.

                         INFORMATION TECHNOLOGY

    This past year has seen significant advances in the area of 
information technology in the Senate. The addition of a Chief 
Information Officer to the SAA management team has facilitated the 
development and delivery of a technology vision, a strategy, and 
solutions to support the Senate and enhance its security.
    The Senate's information technology infrastructure is used to 
complement other security efforts. Information technology is crucial to 
security in the Senate and to the Senate's ability to accomplish its 
day-to-day activities. With a strong emphasis on providing advanced 
technology capabilities and outstanding customer support to the Senate, 
the SAA is adopting a comprehensive approach to delivering technology 
solutions and services. This approach focuses on evaluating and 
implementing effective technology to help the Senate conduct its 
business.
    The SAA is developing an information technology strategy that will 
be implemented in the coming year. The strategy will address the 
Senate's need for mobility, flexibility, and redundancy in information 
and telecommunications systems and will specifically address the 
requirements that:
  --Members and staffs need to be informed and have the ability to 
        track current events in near real-time.
  --Members and staffs need to be secure to carry out their duties 
        under any circumstances.
  --Members and staffs need to be able to communicate among themselves 
        and with constituents and the public.
  --Members and staffs need to be able to operate and maintain 
        Washington, D.C., and state offices.
  --Members and staffs must be able to collect, analyze, manipulate, 
        and present information.
    The strategy will include a plan and a technology roadmap for the 
next two years. The plan and roadmap will provide guidance to the 
Senate on its technology decisions, and a framework for making those 
decisions. In conjunction with this strategy, significant work will 
continue this coming year on information technology initiatives 
relating to security, emerging technology, and customer service. 
Several of these critical initiatives are set forth below.

Security Initiatives
    The Alternate Computing Facility (ACF).--This year, the Alternate 
Computing Facility was added as a major addition to the Senate's 
operational capability. Much of the alternate computing facility 
infrastructure is complete, including facility fit-out, network 
infrastructure, network operating center, and central computing room 
facilities. The facility will soon be ready to house backup servers for 
interested Members and Committees. A fiber optic ring is now complete 
in both directions providing fully redundant connectivity between the 
ACF and Capitol Hill. A state-of-the-art storage area network at the 
ACF receives up to 15 terabytes of data daily from the Capitol Hill 
central computing facilities. The mainframe and server hardware, 
telephone equipment, enterprise fax server equipment, and all 
associated networks are in place and are being tested. Currently, 
installation of a fully redundant set of primary domain controllers to 
support the Senate e-mail system is almost complete. The next step is 
to complete installation and testing of all the software and 
applications running on the hardware infrastructure, upgrade the power 
infrastructure, and complete plans to purchase the facility.
    Contingency Communications.--The SAA's contingency communications 
program involves a number of major multi-year projects. Last year the 
Senate's mobile recording studio became operational. Other mobile 
communications assets will be delivered over the next few months. We 
are working to complete communication systems that integrate 
communications across our emergency facilities. Combined, these 
projects provide a significant increase in the Senate's ability to 
continue to operate under any circumstance.
    Telecommunications Improvement and In-building Wireless 
Infrastructure.--To enhance security, emergency preparedness, and 
customer service, a comprehensive telecommunications improvement plan 
is being implemented. Wireless devices, including cellular telephones 
and personal digital assistants (such as BlackBerry devices), have 
become critical telecommunication infrastructure components supporting 
daily Senate operations and emergency notification activities. The in-
building wireless initiative will provide a Senate-owned wireless 
infrastructure integrating services from all cellular telephone 
carriers, BlackBerry devices, and wireless local area networks (LANs). 
Due to this innovative approach, which will lease infrastructure 
bandwidth back to the cellular telecommunications carriers, this 
program will pay for itself in less than five years while providing 
full cellular, BlackBerry, and wireless LAN connectivity across the 
entire Senate campus. In addition to the in-building wireless 
initiative, an analysis of telecommunications requirements is being 
conducted that will lead to a complete overhaul of our voice and data 
networks and services over the next several years. The first task in 
the analysis phase of this large project is already underway.
    Deployable Communications Assets.--Mobility and flexibility are 
fundamental to successful continuity of operations and continuity of 
government planning and execution. The goal of this office is to make 
it possible for Members and their staffs to communicate and process 
data from almost anywhere at any time if they have to relocate. A 
variety of technologies and capabilities is being developed to provide 
mobility and flexibility options. Two state-of-the-art communications 
vehicles are being deployed that will allow us to establish the 
Senate's information infrastructure almost anywhere. Satellite, radio, 
and local area network and wide area network facilities currently are 
being integrated in each of these communications vehicles with full 
operational capability planned for later this year. Next year's 
Continuity of Operations and Continuity of Government exercises will 
incorporate these vehicles.
    Emergency Operations Coordination Prototype.--To support security 
and emergency operations, we are working with the U.S. Capitol Police 
to develop a prototype emergency operations coordination system that 
will enable officers to update and track individuals electronically 
during a Capitol Hill evacuation operation. This system, which features 
tablet PC technology and back-end databases with full reporting 
capability, is currently in prototype, and will be fully operational 
later this year.
    Information Technology Security: Defense-in-Depth.--During this 
past year, there has been a steep increase in cyber threats, as hostile 
entities attempt to attack our systems with viruses, worms, and denial-
of-service attacks. The Senate's infrastructure and data are protected 
by continuously upgrading our defense-in-depth capability. The defense-
in-depth approach includes multiple layers of defense that protect the 
Senate's information infrastructure at all levels, from the inside out. 
It includes an enterprise anti-virus program.
    We expect to extend the enterprise anti-virus program to all 12,000 
Senate desktop and laptop computers by the end of next year. To date, 
this software has been installed on 5,000 Senate computers, protecting 
them from viruses, worms, and denial-of-service attacks.
    These security efforts have paid off; the Senate has not been 
successfully intruded upon from the outside and we have seen only 
minimal effects from the most aggressive virus and worm attacks. We are 
now working with office system administrators, who are responsible for 
the security of their office local area networks, to improve the 
Senate's overall security posture and enhance our ability to defend 
against intrusions.
    Next year, as part of a comprehensive network infrastructure 
upgrade, it will be necessary to evaluate and upgrade the information 
security infrastructure in the Senate switched network by upgrading 
routers and firewalls. Increased intrusion detection systems, software 
tools, and services will complete the defense-in-depth approach to 
information infrastructure.
    Information Technology Security: Policies, Practices, Training, and 
Tools.--An effective approach to information security goes beyond 
upgrading the information security infrastructure to include evaluating 
and applying best practices and information security and assurance 
hardware and software tools, and providing information security 
training for employees. Through the Information Security Policies and 
Practices Working Group, we are working with Members' technology staffs 
and the Committee on Rules and Administration to examine and improve 
information security practices across the Senate. Because of the 
increasing number of attacks the Senate faces, the SAA is also 
evaluating and upgrading the skills of our own information security 
staff.

Emerging Technologies Initiatives
    One major theme that has been embraced in the Senate's information 
technology strategy is to identify ways that new and emerging 
technologies can support the Senate's priorities. We are already moving 
forward on this effort by analyzing trends to discern which emerging 
technologies will be most applicable in the Senate environment. Once 
promising technologies are identified, the SAA will work with 
interested Senate offices to pilot or prototype the technologies and 
prove the concepts. Following successful pilots, the technologies can 
be rolled out Senate wide.
    New Technology and Innovation.--To elevate technology awareness, 
expose the Senate to the future of technology, and spur innovation, the 
SAA is sponsoring emerging technology events. The first Senate Emerging 
Technologies Conference, held in February 2004, brought experts from 
industry to the Senate to discuss emerging wireless technologies, 
telecommunications trends, knowledge management, and collaboration 
tools. The conference was followed by a technology fair highlighting 
low-cost applications that we could implement at the Senate in the near 
future. More emerging technology events are being planned for fiscal 
year 2005.
    Process Improvement.--The Sergeant at Arms is creating an 
organization to focus on process improvement and innovation from the 
perspective of customer service and security. This year, the 
organization will perform top-down and bottom-up analyses of 
technology-related business processes. It will look for opportunities 
to innovate and will implement ways to make the Senate's technology and 
business processes more efficient and effective. The group will 
document, analyze, and improve processes such as technology project 
management, requests for assistance, and the Senate's systems 
development life-cycle.
    Technology Infusion.--To move emerging technologies into the Senate 
environment quickly, the Office of the Sergeant at Arms is 
collaborating with Senate offices to develop prototype applications, 
consisting of subsets of target functionality. Two such prototypes 
currently under development are the Office Emergency Coordinator 
tracking system and a knowledge management prototype. The approach is 
to think big, start small, and scale quickly.

Customer Service Initiatives
    This office is paying special attention to how well it meets the 
Senate's technology needs. This effort requires the evaluation and 
analysis of all aspects of our information technology solutions and 
technology infusion and delivery programs. A survey was conducted last 
year that measured customers' satisfaction with technology. The survey 
revealed that Members and their staffs want more and better information 
about technology programs, a faster process for infusing new 
technologies, and an emphasis on looking ``over the bow'' toward 
emerging technologies and how the Senate can take advantage of these 
technologies in the next three years.
    Customer Service, Satisfaction, and Communications.--The first step 
taken by the SAA to improve customer service, satisfaction, and 
communications was to implement an extensive customer outreach program 
that enables us to understand the Senate's requirements better. This 
program features communications through monthly information technology 
newsletters, quarterly project status reporting to Senate offices, 
participation in the Majority Leader's Information Technology Working 
Group, joint monthly project and policy meetings with the Committee on 
Rules and Administration and the Senate System Administrators 
Association leadership, and participation in a Hill-Wide Information 
Technology Group. We are also emphasizing customer service by enforcing 
stringent service-level agreements with our technology Help Desk 
contractor. This program has been extremely successful with sustained 
performance levels meeting or exceeding the service-level agreement 
(greater than 95 percent based on customer satisfaction surveys) for 
the past eight months.
    Business Applications.--Based on input and feedback from users, it 
was determined that many of the business software applications 
supporting Members and their staffs needed to be updated. The Senate 
Information Services program will be modernized to provide more 
information from various news sources in near real-time and more 
comprehensive analysis of that information. The financial management 
systems that support the Secretary of the Senate's Disbursing Office 
are also being modernized and made Web-capable. We are also exploring 
new correspondence tracking and management systems and have added to 
the list of available application offerings.
    Intelligence over the Net-Web Services.--One major technology focus 
is to move applications and processing capability to the Senate's 
Intranet. Flexible Web services technologies will allow the placement 
of many service-delivery applications to Webster so users can access 
them with a Web browser. The goal is for the Senate Intranet to evolve 
into a full capability portal providing Senate staff ``one-stop 
shopping'' for common business application functionality.
    Secure Remote Access Options.--In addition to moving applications 
to the Web, this office is aggressively exploring alternate ways for 
Senate users to gain secure remote access to Senate information 
resources. In particular, biometric capabilities are being explored to 
add to the secure networking options already provided.
    Network Upgrades and Video Teleconferencing.--To support 
flexibility, mobility, and improved customer service, we are expanding 
and upgrading the Senate's information networks. Over the next year, 
the Capitol Hill network infrastructure upgrade will be complete, 
delivering increased communications bandwidth to the desktop to support 
the applications of the future. This upgrade, already underway, will 
provide 100 megabits per second (Mbps) to the desktop and one gigabit 
per second (Gbps) between servers in the network. To improve 
communications for Members' state offices, we continuously analyze and 
adjust their wide area network connections and increase bandwidth as 
required. This flexibility allows us to support sophisticated Web 
services over the Internet, as well as the video teleconferencing 
program that is currently underway. Under the video teleconferencing 
program, a state-of-the-art video teleconferencing terminal will be 
installed at each Member's Capitol Hill office and a similar terminal 
at the state office of their choice.
    Electronic Mail and Office Automation Applications.--The Senate 
Messaging Infrastructure is almost complete, with 98 percent of all 
offices migrated to Microsoft Exchange and Outlook. The Active 
Directory Messaging Architecture program, the successor to the Senate 
Messaging Infrastructure program, is currently in the design phase. It 
will allow Member and Committee offices to have choices between central 
and distributed management of their Exchange servers, a Senate global 
address list, and office servers updated from Microsoft NT4 to 
Microsoft Windows 2003 technology. In addition, we will continue to 
expand and upgrade our BlackBerry system to supplement both the Senate 
e-mail system and the emergency notification systems. Moving into the 
next year, continued convergence of devices and the widespread use of 
combination cell phone and BlackBerry devices are anticipated. This 
office is committed to deploying systems that will allow Members more 
flexibility in choosing which wireless device to use for receiving 
emergency notifications and legislative alerts.

                          OPERATIONAL SUPPORT

    While security and information technology initiatives are 
necessarily at the forefront of the SAA's efforts to serve the Senate 
community at this particular time in history, the core value required 
to execute these initiatives successfully--a commitment to exceptional 
customer service--has always been a cornerstone of the SAA's 
operational support. Over the past year, we have seen significant 
improvements in the operational aspects of the SAA's support to the 
Senate. Some of the achievements and projects outlined below are the 
result of better integrating technology into business practices; others 
originated from the need to find innovative solutions to challenges 
presented by the ricin incident. Regardless of the impetus for these 
accomplishments, they all demonstrate the hard work and dedication of 
the SAA operational staffs.
    Senate Post Office.--The Senate Post Office delivered nearly 19 
million safe articles of mail to the Senate community during fiscal 
year 2003. It is our understanding that this was accomplished for 
approximately $3 million less than the House of Representatives, which 
uses an outside contractor to handle similar volume.
    One of the security improvements implemented this past year was a 
new package and envelope-testing site for couriers, allowing for same-
day delivery of time-sensitive items. Additionally, as set forth 
previously in this testimony, the ricin incident in February led to the 
adoption of new mail protocols. This was accomplished by leveraging 
existing personnel and assets while improving the safety, security, and 
cost effectiveness of mail delivery.
    Warehouse.--The need for a modern, efficiently designed warehouse 
facility and mail processing facility continues and, following the 
ricin incident, has become more critical. All mail, packages, and 
deliveries to the Senate must be inspected to ensure the safety of the 
institution. We believe that locating a new warehouse adjacent to the 
U.S. Capitol Police off-site inspection facility will yield 
considerable security and operating benefits. The warehouse and mail 
processing facilities, together with planned U.S. Capitol Police 
initiatives, will ensure the safety and security of Senate assets and 
staff. The financial benefits include eliminating an estimated $800,000 
in annual recurring costs, including the outsourcing expenses for 
package processing that are currently being performed by a contractor.
    Current warehouse facilities are geographically dispersed, 
environmentally inadequate for document and furniture storage and do 
not meet the minimum requirements of the General Services 
Administration. A new facility will correct these problems and enable 
volume discounts for Secretary of the Senate and SAA purchases. It will 
give a longer useful life to furniture and fixtures warehoused and 
provide specialized storage to meet the needs of the Senate Curator and 
Librarian. A new warehouse facility will ultimately benefit the whole 
Senate community through increased efficiency, enhanced security, and 
improved organization.
    Capitol Facilities.--The Capitol Facilities staff continues to work 
around the clock to ensure that the environment within the Capitol is 
clean and professional. With a new management team and a fresh look at 
key processes, the appearance of the Capitol has significantly 
improved. Among the staff's many accomplishments this past year is its 
successful relocation of the Secretary of the Senate's Capitol staff 
from basement offices, which were disrupted by Capitol Visitor Center 
construction, to newly developed fourth-floor office space. This move 
was done without interrupting the Secretary of the Senate's ability to 
support the legislative process.
    Printing, Graphics, and Direct Mail.--The innovations in this 
operational area resulted in substantial cost savings to its customers. 
Specifically, over $1.8 million was saved through the staff's work with 
Member offices on ways to address letters to ensure discounted postage 
rates are received as often as possible. The amount of processed mail 
that qualified for discounted postage this past year was 23 percent 
higher than in fiscal year 2002.
    The use of technology in this area has enhanced customer service. 
Over 2.2 million documents were produced through the SAA's online 
ordering service, a 427 percent increase over fiscal year 2002, when 
the service was first implemented. Online ordering reduces errors and 
provides convenience and labor savings by enabling Senate offices to 
order printing services from their desktops.
    This past year, automation also resulted in a significant increase 
in the Senate's ability to archive documents. By fully automating the 
process, the SAA was able to archive over two million documents for the 
Senate. This represents a 218 percent increase over the previous year 
with no additional staff.
    Photo Studio.--The Senate Photo Studio completed its transition 
from film to high-resolution digital photography and its conversion to 
digital photo printing processes this past year. Photography and photo 
printing services are now being performed digitally, eliminating some 
chemical processes and bringing significant improvements in quality and 
delivery of products to our customers.
    The shift to a digital operation allows staff to view photographs 
taken by the Senate Photo Studio immediately, on site. It also enables 
the Studio to e-mail high-resolution images to Senate offices, and 
allows offices to view images and download them. These enhancements 
have been received well by customers.
    Senate Recording Studio.--The Senate Recording Studio remains a 
leader in the use of technology. Last year, the Recording Studio 
initiated a project to upgrade and install multimedia equipment in 
Committee hearing rooms, including digital signal processing, audio 
systems, and broadcast quality robotic camera systems. This project 
will continue this year.
    The audio upgrades will improve speech intelligibility and provide 
software-based systems that can be reconfigured based on an individual 
Committee's needs. The upgrades also include diagnostic monitoring, 
which enables staff to detect and resolve problems before the problems 
become disruptive. For instance, if a Member is speaking at a 
relatively low volume, the system can more effectively raise the volume 
of that microphone. If a Member who is about to speak does not turn on 
the microphone, the Committee clerk can remotely turn it on from a 
computer. Even if the main electronics fail, a backup system will take 
over within minutes. Additionally, the system provides networking that 
allows the audio to be automatically routed from one hearing room to 
other hearing rooms for overflow purposes.
    The video upgrades will include the addition of broadcast-quality 
television cameras. These cameras will be installed on robotic systems 
and can be controlled remotely from the Recording Studio. The upgrades 
also include cabinetry so the cameras can be concealed when not in use. 
Once this project is completed, the Recording Studio will be able to 
meet the demand for the broadcast of Committee hearings and 
simultaneously maintain production capabilities in the television 
studios.
    The Senate has had the ability to search Chamber proceedings by 
text and listen to audio playback from desktop computers for years. In 
fact, the Senate was a pioneer in this area, and accomplished it in the 
early years of computer browsers. The next major advance will be the 
replacement of the audio and text browsing systems this summer with a 
state-of-the-art audio/text/video browsing system. This will enable 
Senate staff to search and play back Chamber proceedings and news 
programming from any computer on the Senate LAN.
    This system is the result of a modernization of the Senate 
Recording Studio's technical plant that incorporates technology so new 
that it is operational in only a handful of facilities in the country. 
This new technology will enable the Recording Studio to record, edit, 
and play media without ever using tape machines, while simultaneously 
making the media available for online searching and streaming. In the 
near future, the Recording Studio plans to add Senate hearings and 
other media to the system.
    Education and Training.--In 2003, the Senate's Joint Office of 
Education and Training offered 694 classes, with 6,916 Senate employees 
participating. Of the total number of classes offered, 309 were 
technical training, with 1,730 students participating. The registration 
desk handled 15,390 requests for training and documentation. An 
additional 1,126 staff received coaching on various software packages 
and other computer-related issues. Training was provided to almost the 
entire Senate community as the new Senate Messaging Infrastructure was 
implemented.
    Over 350 professional development classes were offered last year 
with a total attendance of 5,117 students. Managers and supervisors are 
encouraged to request customized training for their offices. As a 
result, the staff of the Joint Office of Education and Training worked 
on more than 40 occasions with teams on issues related to team 
performance, communication, and conflict resolution. Over 1,300 Senate 
staff also took advantage of the 18 health events sponsored by this 
office.
    A ``State Training Fair,'' which was first available in March 2000, 
was offered three times this past year to 134 state staff members. 
Forty-two senior leaders in state offices also participated in the 
first State Directors Forum. In addition, state offices continue to be 
offered ``Virtual Classrooms,'' an Internet-based training library of 
over 300 courses. To date, 164 state office staff, representing 59 
Senators, have used the virtual classrooms.
    The Joint Office of Education and Training ensures that the 
training designed for Senate staff meets their needs. This upcoming 
year particular attention will be paid to providing training to 
increase the Senate's awareness of information technology security. 
Specifically, an IT Security Awareness program for Senate staff is 
being developed and a course on reviewing and configuring security 
settings on Windows servers is ready for delivery. Existing computer 
security classes and documentation are being revamped, and IT security 
issues will be included as an integral part of our system 
administration classes and other classes. System Administrators will be 
able to receive training to maintain and enhance their skills, 
including new, self-paced training with mentoring for those who would 
benefit from more instruction and personal guidance.
    Support to Other Organizations.--In addition to the support the SAA 
provides the Senate, we also provide significant support to 
organizations outside the Senate. In fiscal year 2003, the SAA 
performed services for other organizations costing over $3 million 
without reimbursement. Most of these services support the U.S. Capitol 
Police and the Architect of the Capitol. However, support is also 
provided on occasion to the House of Representatives, and to liaison 
offices and other organizations located in the Senate Office Buildings. 
These services include printing and graphics products, maintenance of 
radio and network systems, telephone services (some of which are 
reimbursed), and computer repair and installation.

                               CONCLUSION

    The staff of the SAA has done tremendous work to keep the Senate 
safe, secure, and operating efficiently. The accomplishments and vision 
of this office would not be possible without the active, ongoing 
support of this Committee and the Committee on Rules and 
Administration. We thank you for your support and for the opportunity 
to present this testimony and answer questions.
    From security to technology to operational support, we are 
dedicated to making sure that our products and services support the 
Senate's mission. The appendix accompanying this testimony elaborates 
the specific components of our fiscal year 2005 budget request.
                                 ______
                                 
                              Attachment I
                  Financial Plan for Fiscal Year 2005
          office of the sergeant at arms--united states senate
                           executive summary

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                                                                          Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $45,789      $50,635       $4,846          10.6
    Expenses...............................................      $46,581      $55,585       $9,004          19.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $92,370     $106,220      $13,850          15.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $56,398      $58,129       $1,731           3.1
Capital Investment.........................................      $27,570      $18,062      ($9,508)        -34.5
Nondiscretionary Items.....................................       $4,694       $4,290        ($404)         -8.6
                                                            ----------------------------------------------------
      TOTAL................................................     $181,032     $186,701       $5,669           3.1
                                                            ====================================================
Staffing...................................................          845          860           15           1.8
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2005 
budget request of $186,701,000, an increase of $5,669,000 or 3.1 
percent compared to fiscal year 2004. The salary budget request is 
$50,635,000, an increase of $4,846,000 or 10.6 percent, and the expense 
budget request is $136,066,000, an increase of $823,000 or 0.6 percent. 
The staffing request is 860, an increase of 15 FTEs.
    For the third consecutive year, we have increased funds for 
security initiatives. The fiscal year 2005 budget request for security 
is $17,698,000, an increase of $1,588,000 or 9.8 percent compared to 
fiscal year 2004. The most significant aspects of the total security 
request are funding security upgrades for Member state offices 
($3,650,000 in expenses); the Alternate Computing Facility (ACF) 
($1,172,000 in salaries for 17 FTEs and $2,166,000 in expenses); 
enhanced communication services ($2,300,000 in expenses); personnel and 
operating expenses requested for the Office of Security and Emergency 
Preparedness ($1,074,000 in salaries for 12 FTEs and $2,166,000 in 
expenses); secure mail and package processing protocols ($694,000 in 
salaries for 19 FTEs and $2,165,000 in expenses); and network security 
($305,000 in salaries for 4 FTEs and $1,704,000 in expenses).
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$50,635,000, an increase of $4,846,000 or 10.6 percent compared to 
fiscal year 2004. The salary budget increase is due to the addition of 
15 FTEs, a 3.9 percent COLA, and merit funding. The additional staff 
will augment our security team, improve operations, expand services, 
and meet new requirements for the Senate community.
    The general operations and maintenance expenses budget request for 
existing and new services is $55,585,000, an increase of $9,004,000 or 
19.3 percent compared to fiscal year 2004. Major factors contributing 
to the increase are price adjustments and annual escalations in the IT 
Support contracts, $2,583,000; increased cost of expanded intrusion 
detection monitoring services and software, $1,105,000; implementation 
of a new real-time news service and renegotiation of all other Senate 
Information Services (SIS) contracts, $860,000; management consultants 
and services required for security operations and planning and 
emergency preparedness, $666,000; replacement of existing enterprise 
servers, $565,000; replacement of wiring in the Capitol, $500,000; 
increased hardware maintenance and licenses for the ACF, $310,000; 
procurement of furnishings, carpeting, and window treatments for the 
Senate wing of the Capitol, $238,000; support agreements for word 
processing and virus software, $202,000; and increased mainframe 
software maintenance, $181,000.
    The mandated allowances and allotments budget request is 
$58,129,000, an increase of $1,731,000 or 3.1 percent compared to 
fiscal year 2004. Major factors contributing to the increase are 
projected increases in commercial and federal office rents, $953,000, 
and maintenance and monitoring of previously installed security systems 
and new security installations in offices established following the 
2004 elections, $906,000. A decrease of $294,000 in office equipment 
purchases in Washington D.C. and state offices partially offsets these 
increases.
    The capital investment budget request is $18,062,000, a decrease of 
$9,508,000 or 34.5 percent compared to fiscal year 2004.
    Major factors contributing to this budget request are completing 
the procurement of the Mail Processing Facility/Warehouse, $7,200,000; 
upgrading Senate data networks and related management systems, 
$2,952,000; initial design and equipment purchases for the replacement 
of the Capitol Hill telephone system, $2,800,000; procurement of 
furnishings and equipment for the Senate side of the Capitol Visitor's 
Center (CVC), $2,500,000; workflow technology hardware and software, 
$400,000; backup document archiving system at the ACF, $350,000; 
emergency backup storage for Members at the ACF, $325,000; upgrading 
mail processing equipment, $310,000; and testing and evaluating 
telecommunications equipment and products, $250,000. Funds also are 
requested for several smaller printing and video projects.
    Funding is no longer required for relocation of the Recording 
Studio in conjunction with the CVC Project and completion of Phases I, 
II and III for the Digital Technology Migration Project, completion of 
CMS projects, acquisition of the work-order system, acquisition of an 
ID laser printing system, acquisition of a mail sorter, and completion 
of the upgrade to the video conferencing project.
    The nondiscretionary items budget request is $4,290,000, a decrease 
of $404,000 or 8.6 percent compared to fiscal year 2004. Major factors 
contributing to this budget request are contract maintenance for the 
Financial Management Information System (FMIS), $2,700,000; 
enhancements to the Legislative Information System (LIS), $1,220,000; 
and requirements definition for replacement of the Senate Payroll 
System, $370,000.
                                 ______
                                 
                             Attachment II
             Fiscal Year 2005 Budget Request by Department

    The following is a summary of the SAA's fiscal year 2005 budget 
request on an organizational basis.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                         Department                                       Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $10,765      $13,400       $2,635          24.5
Operations.................................................      $43,473      $37,608      ($5,865)        -13.5
Chief Information Officer..................................      $91,781      $99,074       $7,293           7.9
Office Support.............................................      $29,230      $30,261       $1,031           3.5
Staff Offices..............................................       $5,783       $6,358         $575           9.9
                                                            ----------------------------------------------------
      TOTAL................................................     $181,032     $186,701       $5,669           3.1
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.
                            capitol division

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Fiscal Year 2005 vs.
                                                             --------------------------     Fiscal Year 2004
                      Capitol Division                                     Fiscal Year -------------------------
                                                              Fiscal Year      2005                    Percent
                                                              2004 Budget    Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $6,355       $7,317         $962         15.1
    Expenses................................................       $1,666       $2,433         $767         46.0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $8,021       $9,750       $1,729         21.6
                                                             ===================================================
Mandated Allowances & Allotments............................       $2,744       $3,650         $906         33.0
Capital Investment..........................................           $0           $0           $0          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      TOTAL.................................................      $10,765      $13,400       $2,635         24.5
                                                             ===================================================
Staffing....................................................          143          145            2         1.4
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, Media Galleries and the Office of Security and Emergency
  Preparedness.

    The general operations and maintenance salaries budget request is 
$7,317,000, an increase of $962,000 or 15.1 percent. The salary budget 
increase is due to the addition of two FTEs, an expected 3.9 percent 
COLA, and merit funding for fiscal year 2005. The Office of Security 
and Emergency Preparedness requires two additional FTEs to direct, 
develop and monitor the processes and procedures needed to ensure 
security for the Senate and to work on the Continuity of Operations 
Plan.
    The general operations and maintenance expenses budget request is 
$2,433,000, an increase of $767,000 or 46.0 percent, primarily for 
increased management consulting services for security initiatives.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,650,000, an increase of $906,000 or 
33.0 percent. Funding is required for the maintenance and monitoring of 
previously installed security systems and new security installations in 
offices established following the 2004 elections and consists of three-
year funds.

                               OPERATIONS

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                         Operations                                       Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $16,349      $17,817       $1,468           9.0
    Expenses...............................................       $7,992       $8,816         $824          10.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $24,341      $26,633       $2,292           9.4
                                                            ====================================================
Mandated Allowances & Allotments...........................           $0         $165         $165   ...........
Capital Investment.........................................      $19,132      $10,810      ($8,322)        -43.5
Nondiscretionary Items.....................................           $0           $0           $0           0.0
                                                            ----------------------------------------------------
      TOTAL................................................      $43,473      $37,608      ($5,865)        -13.5
                                                            ====================================================
Staffing...................................................          363          364            1          0.3
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Printing, Graphics and Direct Mail, Parking
  Office, Director/Management, ID Office, Photo Studio, and Hair Care Services), Operations Administrative
  Services, Recording Studio, Post Office, and Facilities.

    The general operations and maintenance salaries budget request is 
$17,817,000, an increase of $1,468,000 or 9.0 percent. The salary 
budget increase is due to the addition of one FTE to provide 
administrative support, an expected 3.9 percent COLA, and merit funding 
for fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$8,816,000, an increase of $824,000 or 10.3 percent. Major factors 
contributing to the increase are maintenance and procurement of 
furnishings, carpeting and window treatments for the Senate wing in the 
Capitol building, $238,000; increased warehouse rent and operating 
expenses, $120,000; software customizations and interfaces for the 
work-order system purchased in fiscal year 2004, $100,000; increased 
screening costs for more secure package processing, $100,000; 
replacement of miscellaneous printing/mailing equipment, $90,000; and 
maintenance on software and production equipment, $55,000.
    The mandated allowances and allotments budget request is $165,000 
to furnish Capitol offices. The capital investment budget request is 
$10,810,000, a decrease of $8,322,000 or 43.5 percent.
    Major factors contributing to this budget request are completion of 
the procurement of the Mail Processing Facility/Warehouse, $7,200,000; 
procurement of furnishings and equipment for the Senate side of the 
CVC, $2,500,000; purchase of a Data Storage Server to provide emergency 
archival backup services for Member offices at the ACF, $350,000; 
upgrades to and replacement of outdated mailing equipment, $310,000; 
replacement of an outdated color printer, $200,000; and upgrades to and 
enhancement of the Photo Browser database, $200,000.
    Funding is no longer required for relocation of the Recording 
Studio in conjunction with the CVC Project and completion of Phases I, 
II and III for the Digital Technology Migration Project, upgrades to 
the Senate Chamber Audio System, acquisition of the work-order system, 
acquisition of an ID laser printing system, and acquisition of a mail 
sorter for the Post Office.
    Funding for the Mail Processing Facility/Warehouse, $7,200,000, and 
the Facilities CVC project, $2,500,000, consists of three-year funds.

                       CHIEF INFORMATION OFFICER

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                 Chief Information Officer                                Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $16,498      $18,395       $1,897          11.5
    Expenses...............................................      $35,795      $43,074       $7,279          20.3
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $52,293      $61,469       $9,176          17.5
                                                            ====================================================
Mandated Allowances & Allotments...........................      $26,356      $26,063        ($293)         -1.1
Capital Investment.........................................       $8,438       $7,252      ($1,186)        -14.1
Nondiscretionary Items.....................................       $4,694       $4,290        ($404)         -8.6
                                                            ----------------------------------------------------
      TOTAL................................................      $91,781      $99,074       $7,293           7.9
                                                            ====================================================
Staffing...................................................          249          254            5          2.0
----------------------------------------------------------------------------------------------------------------
The Chief Information Officer Division consists of IT Support Services, Technology Development Services,
  Administrative Services, Process Management and Innovation, and Information Technology.

    The general operations and maintenance salaries budget request is 
$18,395,000, an increase of $1,897,000 or 11.5 percent. The salary 
budget increase is due to the addition of five FTEs, an expected 3.9 
percent COLA, and merit funding for fiscal year 2005. IT Support 
Services requires three new FTEs to serve as network engineers to 
accommodate increased workload for emergency preparedness and 
telecommunication systems at alternate locations. Technology 
Development Services requires one FTE to serve as a senior software 
specialist to assist with maintenance and enhancements to the Contract 
Administration System and other administrative systems. Administrative 
Services requires one FTE to draft correspondence, proof documents, and 
provide executive-level assistance to the Technical Writer, the 
Assistant Sergeant at Arms for Security and Emergency Preparedness, the 
Assistant Sergeant at Arms and Chief Information Officer, and Special 
Projects.
    The general operations and maintenance expense budget request is 
$43,074,000, an increase of $7,279,000 or 20.3 percent. Major factors 
contributing to this increase are price adjustments and annual 
escalations in the IT support contract, $2,583,000; increased cost of 
expanded intrusion detection monitoring services and software, 
$1,105,000; implementation of a new real-time news service and 
renegotiation of all other SIS contracts, $860,000; replacement of 
existing enterprise servers, $565,000; replacement of wiring in the 
Capitol, $500,000; increased hardware maintenance and licenses for the 
ACF, $310,000; support agreements for word processing and anti-virus 
software, $202,000; increased professional services for threat 
assessments and disaster recovery improvements, $190,000; increased 
mainframe software maintenance, $181,000; and additional purchases of 
data communication equipment, $172,000.
    The mandated allowances and allotments budget request is 
$26,063,000, a decrease of $293,000 or 1.1 percent. Major factors 
contributing to this budget request are voice and data communications 
for Washington D.C. and state offices, $17,937,000; procurement and 
maintenance of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $3,181,000; and acquisition of the Appropriations 
Analysis and Reporting System, $400,000. Reduced purchases of office 
equipment, primarily photocopiers, for Washington D.C. and state 
offices results in the lower budget request for fiscal year 2005. 
Funding for procurement and maintenance of Members' constituent mail 
systems, $4,255,000, consists of five-year funds.
    The capital investment budget request is $7,252,000, a decrease of 
$1,186,000 or 14.1 percent. Major factors contributing to this budget 
request are upgrade of the data network, $2,952,000; initial design and 
equipment purchases for the replacement of the Capitol Hill telephone 
system, $2,800,000; and purchase of data storage servers to provide 
emergency backup for Member offices at the ACF, $325,000. Reduced 
funding needs for the Asset Management Upgrade Project as it moves into 
the maintenance phase, several CMS-related projects, the Public Key 
Infrastructure project, the Wireless PDA project, the Enterprise 
Storage Area Network project, and the Application Server Provider 
project result in the lower budget request for fiscal year 2005.
    The nondiscretionary items budget request is $4,290,000, a decrease 
of $404,000 or 8.6 percent. Major factors contributing to this budget 
request are contract maintenance for the Financial Management 
Information System (FMIS), $2,700,000; enhancements to the Legislative 
Information System (LIS), $1,220,000; and requirements definition for 
replacement of the Senate Payroll System, $370,000.

                        OFFICE SUPPORT SERVICES


                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS              Fiscal Year 2005 vs.
                                                            --------------------------      Fiscal Year 2004
                  Office Support Services                                 Fiscal Year --------------------------
                                                             Fiscal Year      2005                     Percent
                                                             2004 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $1,895       $1,995         $100           5.3
    Expenses...............................................          $37          $15         ($22)        -59.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $1,932       $2,010          $78           4.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $27,298      $28,251         $953           3.5
Capital Investment.........................................           $0           $0           $0           0.0
Nondiscretionary Items.....................................           $0           $0           $0           0.0
                                                            ----------------------------------------------------
      TOTAL................................................      $29,230      $30,261       $1,031           3.5
                                                            ====================================================
Staffing...................................................           28           28            0          0.0
----------------------------------------------------------------------------------------------------------------
The Office Support Services Department consists of the Customer Support, Help and IT Request Processing, State
  Office Liaison, and Director branches.

    The general operations and maintenance salaries budget request is 
$1,995,000, an increase of $100,000 or 5.3 percent. The salary budget 
increase is due to an expected 3.9 percent COLA and merit funding for 
fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$15,000, a decrease of $22,000 or 59.5 percent, resulting from a 
reduction in travel costs and office supplies.
    The mandated allowances and allotments budget request is 
$28,251,000, an increase of $953,000 or 3.5 percent, resulting from 
projected increases in commercial and federal office rents. Funding to 
purchase computer equipment for Members, Committees, Officers, and 
Leadership, $10,315,000, consists of three-year funds.

                             STAFF OFFICES

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Fiscal Year 2005 vs.
                                                             --------------------------     Fiscal Year 2004
                        Staff Offices                                      Fiscal Year -------------------------
                                                              Fiscal Year      2005                    Percent
                                                              2004 Budget    Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $4,692       $5,111         $419          8.9
    Expenses................................................       $1,091       $1,247         $156         14.3
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $5,783       $6,358         $575          9.9
                                                             ===================================================
Mandated Allowances & Allotments............................           $0           $0           $0          0.0
Capital Investment..........................................           $0           $0           $0          0.0
Nondiscretionary Items......................................           $0           $0           $0          0.0
                                                             ---------------------------------------------------
      TOTAL.................................................       $5,783       $6,358         $575          9.9
                                                             ===================================================
Staffing....................................................           68           69            1         1.5
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, and
  Special Projects.

    The general operations and maintenance salaries budget request is 
$5,111,000, an increase of $419,000 or 8.9 percent. The salary budget 
increase is due to the addition of one FTE to perform compensation and 
classification duties, an expected 3.9 percent COLA, and merit funding 
for fiscal year 2005.
    The general operations and maintenance expenses budget request is 
$1,247,000, an increase of $156,000 or 14.3 percent, primarily from 
increased professional services operating expenses and purchase of 
equipment and software for training programs.

                       EFFECT OF BUDGETARY FREEZE

    Senator Campbell. Thank you, Mr. Pickle. I'm going to ask 
you what I've asked everyone who's testified before this 
committee this year, and that is, how would you manage if we 
had a freeze, and have you prioritized your budget?
    Mr. Pickle. I'd really have to study it but I would say 
offhand the first thing that we would not touch would be 
security and emergency preparedness. Then we would look and 
prioritize, along with the committee's assistance, and work on 
those areas where we could make cuts. But certainly the 
security and emergency preparedness would be untouchable for 
me.

                          STATUS OF WAREHOUSE

    Senator Campbell. Good answer. Now, last year we provided 
$6.3 million for design and land purchase for a new warehouse. 
Your budget request for 2005 includes an additional $7.2 
million for this same project. What's the status of that 
warehouse project now?
    Mr. Pickle. The actual design of the project is about two-
thirds complete. But this year's ricin attack has put us back a 
little bit. And let me explain that. We all agree that a 
warehouse is very important. We're using three very obsolete 
facilities--they're spread out around the metropolitan area--
and for many, many reasons we need to replace those three 
facilities with one. The ricin attack caused us to make some 
very fundamental changes here on the Hill in regard to mail 
processing. As you probably realize, we are now examining all 
mail before it comes on campus. What we are looking to do is, 
we want a partnership with the police department, and we're 
looking for one footprint, or one piece of land, where we can 
have separate facilities--a warehouse, a mail processing center 
and the police department's off-site inspection center. We're 
moving toward it, and the reality is that money that's been 
appropriated is a good start, but I truly believe we're going 
to need significantly more money to do this the right way.
    Senator Campbell. So this $7.2 million won't be enough to 
complete the project? Is that correct?
    Mr. Pickle. No, it will not. It would be substantially more 
than that.
    Senator Campbell. Is it something that could be deferred in 
view of budgetary constraints or is that considered a really 
high priority?
    Mr. Pickle. I think it's a high priority for several 
reasons. We have personnel who are now opening this mail off-
site in very primitive conditions. We're making them safe, they 
are safe.
    Senator Campbell. What is a primitive condition?
    Mr. Pickle. When I say primitive, we are remodeling a 
current warehouse facility; it's a very close-in facility. Now, 
where it's safe, and we have the negative airflow and we have 
all the precautions that we're taking to make them safe, it's 
just not a very efficient operation. There are several 
different processes, which I won't go into here in this open 
session, but there's several different processes and it is a 
very, very labor-intensive process.
    Senator Campbell. Well, the ricin scare was after we 
provided the $6.3 million. Have you had to do design changes 
that you hadn't expected?
    Mr. Pickle. Yes, we have because the ricin scare forced us 
to look at the way we handled mail and it's caused us to do a 
re-engineering of the actual process. But the fundamental 
design changes whereby walls are here and interior walls are 
here, that hasn't changed too significantly.

                            STAFFING LEVELS

    Senator Campbell. I see. Your budget also includes 15 
additional staff over the fiscal year 2004 authorized level. 
This committee understands that there are about 50 vacancies, 
excluding patronage positions. Why do you have so many 
unfulfilled positions and why are you requesting additional 
ones when you haven't filled the other 50?
    Mr. Pickle. Well, that was my question, too. It was my 
question last year and I think it was your question last year. 
And I thought I had a good answer last year and I'm going to 
try to give you a better one this year. What we have found is, 
we have an attrition rate of maybe 3 or 4 percent a year. We 
constantly have people who are leaving for one reason or 
another. We have also been given additional positions by this 
committee over the last several years which we are trying very 
aggressively to fill. So I guess what I'm saying is, as we hire 
one person we may have one vacancy occur. But the other part of 
that, and this is an important part, we have many applicants 
for these positions but we still continue to insist on hiring 
only the best people we can find. And if we don't find the 
right person then we won't fill that person and we will 
readvertise it. But I agree it's imperative that we become 
fully staffed. We are not there yet and I do not think, based 
on what I found out, that we are any different than any other 
organization, private or governmental, whereby you ever reach 
full staffing levels.
    Senator Campbell. So with the 50 vacancies, are our service 
levels degraded any place in particular?
    Mr. Pickle. I think it's across the board but one of the 
areas that we're increasing dramatically this year, and it's 
not reflected in our initial budget request, is we've added 12 
positions to the post office for mail handlers, and this is for 
those personnel who will examine mail.

                          NEW TELEPHONE SYSTEM

    Senator Campbell. Your budget includes $2.8 million for the 
design of a new Capitol Hill telephone system. Why is that 
system needed and when would funding be required for the system 
itself?
    Mr. Pickle. It's my understanding the last major 
telecommunications upgrade took place in the late 80's. What 
this $2.8 million does for us is it gives us about $800,000 to 
do the actual consulting work, the research, the developmental 
work, looking at the architecture we have or will need. The 
other $2 million is a number that we believe will be sufficient 
this year to start buying additional equipment, phone sets. But 
you are right and I think where you're going, the long-term 
cost will be much more but we can't----
    Senator Campbell. Do you have an estimate about that long-
term cost?
    Mr. Pickle. The long-term cost I do not know; we won't know 
until we complete the consulting work. That's part of this 
funding.

                      NEW MAIL HANDLING PROTOCOLS

    Senator Campbell. For whatever you can say in a public 
forum here, what's the status of the new mail handling 
protocols? What's been put in place following the ricin 
incident?
    Mr. Pickle. Let me talk in general terms if I may. Mail 
coming to the Senate continues to be irradiated at a postal 
facility in the Northeast part of this country. It's then 
delivered here to Washington where it goes to a mail examining 
center. The mail is examined in a particular process. It then 
goes to another center where it's actually opened, physically 
opened, and each individual letter is opened and examined for 
any type of substance. It's then quarantined until the tests 
come back negative. It is then delivered to the Senate post 
office, where the post office then delivers it to the 
individual committee or Member's office. This process, 
unfortunately, adds about 24 hours to the current mail delivery 
process. We're looking at postmark to delivery about 8 to 10 
days. Now, having said that, we still have a backlog because, 
as you remember, on February 3, when we had the ricin attack, 
we stopped delivery of mail for approximately 10 days here on 
the Senate side. We're trying to go through all that mail that 
is backed up and clean it out of the system and get it 
delivered. So we still have a backlog of just under 2 weeks of 
mail that hasn't been caught up with.
    Senator Campbell. About 2 weeks?
    Mr. Pickle. About 2 weeks' worth.

                         EFFECTS OF IRRADIATION

    Senator Campbell. One last little question. I don't know if 
this happened to all the other Senators or just me but this is 
my Senate card, and it's all faded and flat. The raised 
numbers, that go through the irradiation machine, they're 
perfectly flat so the electronic tape, this magnetic tape on 
the back still works but the front doesn't. I was told that 
that's what irradiation does to them. Is that just my card or 
do they all come out like that?
    Mr. Pickle. No, if the irradiation level is high enough it 
will, the term that's used, ``cook'' something and that heat 
could, in fact, flatten those out.
    Senator Campbell. Is there anything on the drawing board 
that won't do that to cards?
    Mr. Pickle. Well, I'm surprised that happened. We promised 
about 1 year ago that we would reduce those levels considerably 
so as to prevent that. But we will look into that, certainly.
    Senator Campbell. Okay, I have no further questions. 
Senator Durbin.

                       JUDICIARY COMMITTEE PROBE

    Senator Durbin. Thank you, Mr. Chairman. Mr. Pickle, again 
let me thank you and all those who helped you with the 
investigation on the computer break-in, computer theft. I know 
it was an extraordinary commitment on your part and the people 
who worked with you, with the Capitol Police as well as the 
Secret Service. I thank you for that.
    Mr. Pickle. Thank you.
    Senator Durbin. I'd like to ask you a few follow-up 
questions. You're aware of the fact that when the Senate 
Judiciary Committee finished a number of letters were sent to 
the Attorney General.
    Mr. Pickle. Yes, sir.
    Senator Durbin. Different letters. Some of us signed both.
    Mr. Pickle. Yes.
    Senator Durbin. I think the message that we were sending to 
the Attorney General's Office was our hope that this would be 
investigated in a totally above-board, non-partisan fashion. 
And your investigation was to determine whether or not there 
was any criminal wrongdoing and whether this investigation 
should be pursued. I'd like to ask you a few questions relevant 
to that. I understand on Wednesday, March 17, you delivered a 
copy of the report to the Justice Department. First of all, I 
realize Attorney General Ashcroft has been out as he's 
recuperating from surgery and we all wish him well in that 
regard; Deputy Attorney General Jim Comey is in charge of the 
Department. Did you meet with Mr. Comey with this referral?
    Mr. Pickle. No, we made initial contact with Mr. Comey's 
office and his designee met with us, a Mr. Chris Ray.
    Senator Durbin. The Assistant Attorney for the Criminal 
Division?
    Mr. Pickle. Criminal, yes.
    Senator Durbin. Did anyone, Mr. Ray or anyone at the 
Justice Department, tell you what they intended to do with the 
report?
    Mr. Pickle. I believe the quote was that we intend to take 
a very thorough, professional review of this and we will 
contact the committee.
    Senator Durbin. Did they give you any timeframe within 
which they would respond to the referral?
    Mr. Pickle. No, not at all.
    Senator Durbin. Did you ask them for a response?
    Mr. Pickle. No, we did not, sir.
    Senator Durbin. Was Mr. William Ascella--I hope I'm 
pronouncing it correctly--the Department's Assistant Attorney 
General for Legislative Affairs, at the meeting as well?
    Mr. Pickle. Yes he was.
    Senator Durbin. Did you raise with him the outstanding 
issue you had with the Department of Justice Legislative 
Affairs Office which you referred to in your report footnote 
seven, and I quote, ``As to the time of this report is being 
completed, the Department of Justice still has under 
consideration investigators' request to interview the employee 
who Mr. Blank reported having contacts with.''
    Mr. Pickle. Yes, we raised that issue.
    Senator Durbin. If so, what did Mr. Ascella--I hope that's 
correct--reply?
    Mr. Pickle. I along with my counsel, Lynne Halbrooks, who 
is with me, raised that issue along with several other issues 
we thought were important but there was no comment to those.
    Senator Durbin. Based on your investigation do you feel 
that there is any danger if the investigation, complete 
investigation of this matter is not finished in a timely 
fashion?
    Mr. Pickle. I'm going to look at it as a criminal 
investigator would. I have no concerns that any evidence will 
be destroyed but of course any investigation you get into you 
want to do it in a very timely manner; memories are fresh, 
documents cannot be destroyed that may not be in possession, 
and people can still be located. So I would hope that it would 
be investigated soon if it's going to be investigated at all.
    Senator Durbin. Thank you very much, I agree with that. And 
I might also add for the record that some groups continue to 
buy newspaper advertising that attacks the Senators who had 
their files broken into instead of going after those who were 
guilty of the theft.

                      GAO COMPUTER SECURITY REVIEW

    Let me ask you also, during your investigation you came to 
realize that all of the Senate committees' systems were set up 
in essentially similar ways, with similar vulnerabilities in 
some places as those exploited in the Senate Judiciary 
Committee. On February 20, 2004, Senators Hatch and Leahy sent 
a joint letter to David Walker, Comptroller General, asking the 
GAO to perform a comprehensive control study to assess the 
sufficiency of our committee's computer security and to 
recommend policies and practices for the committee to adopt. 
Are you working with the GAO on this matter?
    Mr. Pickle. We have had only a conversation over the phone 
with them. They're starting to make inquiries now and they're 
starting to come in and begin their review but I don't know at 
what stage that is.
    Senator Durbin. Do you plan on working with the GAO in this 
study?
    Mr. Pickle. We're going to be helpful but I want to direct 
them to the committee and work with staff directors there. And 
I have to be cautious about this; I want to make sure that 
whatever we do does not jeopardize the evidence that we still 
have in custody, the servers, the hard drives and the other 
backup tapes that we seized. So it may be the GAO may take a 
step back and wait for this to be complete before they come in.
    Senator Durbin. So it's possible the GAO analysis and 
recommendations about how to make all the computers safe on 
Capitol Hill may be waiting Department of Justice action at 
your investigation.
    Mr. Pickle. It's possible but I think they would have to 
look and actually meet with the staff directors and meet with 
the systems administrators. And once they get a feel of the 
architecture and what currently exists they can probably then 
make that decision but I wouldn't want them to be premature and 
just jump in without having a good view of that land in front 
of them.
    Senator Durbin. Well, I certainly hope Department of 
Justice deals with this in a timely fashion to preserve 
evidence and to make certain that we have a good, complete 
investigation. You took it as far as you could, I understand 
that, did a fine job with the Secret Service but only 
Department of Justice can finish this investigation. Doing it 
in a timely fashion will finally bring us to a conclusion in 
that regard one way or the other and also set the stage for 
looking at other computer facilities on the Hill to make 
certain that they're not vulnerable to the same type of theft.

                      SENATE COMPUTING TECHNOLOGY

    At one of the earlier hearings I expressed concern about 
the technology----
    Mr. Pickle. Yes.
    Senator Durbin [continuing]. Available to members of the 
United States Senate. Since I share a home with two Members of 
the U.S. House of Representatives I often hear about the new 
bells and whistles that are being added to their computer 
system.
    Mr. Pickle. Yes.
    Senator Durbin. And I said outloud, and was quoted in the 
press, that I wanted to find out why the Senate was always 
behind the House and the House and Senate were always behind 
the rest of the world when it came to computer technology.
    Mr. Pickle. Yes.
    Senator Durbin. I've learned, once again, to be careful 
what you wish for because Mr. Greg Hanson of your office came 
by and absolutely snowed me in a matter of hours, an hour or 
so, briefing my staff about everything that he's done in a 
short period of time and plans to do to make sure that the 
Senate technology is the very best within the limits of our 
budget. My office receives about 50,000 e-mails every week, 
50,000 a week. And we have to find a way to sort through these 
e-mails by source and subject and generate some replies that 
are meaningful to the people who contacted us and decide which 
ones we're not going to reply to, for instance, those from 
outside my State. I'm wondering, the House, I understand, has a 
system that's being designed to generate such an automatic 
reply and sorting. Do you know if similar plans are in place 
for the Senate?
    Mr. Pickle. I was unaware of this sorting system or 
software that they have. I have talked to Mr. Hanson since his 
meeting with you and we are certainly looking at it. I think it 
can be supplied on an individual basis but we're looking at 
that now to see if that's not something we should offer 
everyone.
    Senator Durbin. One of the nightmares that Senator Campbell 
and I face is to go back to our home States and have someone 
say, I sent a letter to your office and I never got a reply. 
Or, I sent an e-mail and I never heard from you.
    Mr. Pickle. Yes.
    Senator Durbin. It's one of the most depressing things that 
can happen to an elected official. Now we have a mail system 
that is being delayed for security reasons, obviously necessary 
security reasons, and an e-mail system that is being 
overwhelmed.
    Mr. Pickle. Sure.
    Senator Durbin. And so I live and dread that going back to 
my State I'm going to run into that kind of a situation. So I 
certainly encourage you and Mr. Hanson to see if there's a 
timely way to deal with that issue.
    Mr. Pickle. We will.

                  SECURITY FOR CAPITOL VISITOR CENTER

    Senator Durbin. May I ask you one last question and that 
is, can you tell me what conversations you've been involved in, 
if any, relative to security at the new Capitol Visitor Center?
    Mr. Pickle. The conversations relative to security have 
been few and far between as it relates to the CVC. In other 
words, we're at a stage now where most of the discussions have 
to do with operational aspects of the center. Initially we did 
have a number of conversations; I know the police department 
participates in these discussions actively with the folks 
involved in coordinating this effort. Obviously security is 
paramount there; it's one of the key reasons why we have that 
center. But I believe from what I heard at a meeting last week 
that those needs are being addressed and we want to make sure 
they are addressed.
    Senator Durbin. Thank you. Thank you, Mr. Pickle, Mr. 
Chairman.
    Senator Campbell. Senator when you said 50,000 e-mails a 
week, I haven't been here as long as many of my colleagues but 
I tell you, when I first got in office just 22 years ago there 
were no e-mails. There were no cells phones, there were no 
Blackberries and those days are gone forever. I often think 
when I see some of my senior colleagues like Senator Stevens 
who's with us today, the changes he's seen in technology, what 
there was or wasn't when he got here but I guess I better not 
go there.
    I'll yield to Senator Stevens now for any questions.
    Senator Stevens. Pocahontas had just left if that tells you 
anything.
    Senator Campbell. That's been awhile.

                      LIBRARY OF CONGRESS SECURITY

    Senator Stevens. I really don't have any questions but I 
came by, Mr. Pickle, because I think Senator Bennett has 
pursued the concept of a police force for the Library of 
Congress. I happen to be Chairman of the Joint Committee on the 
Library of Congress. We still have some real misunderstandings 
about the concept of integrating the police force, Capitol 
Police Force, with the police, staff of the Library of 
Congress. And I've got a bunch of questions that I was going to 
ask but I think what I'm going to do instead is ask if you and 
Dr. Billington would meet us, members of the subcommittee, 
whoever wants to come and see if we can't work this out. 
Security of the Capitol comes first but there is, really, a 
history of the police force over there that they've had 
different duties in the past and I think we have to work some 
sort of a transition to meet their needs at the same time with 
the new complex that we've got being built in terms of the new 
facilities, the visitor facilities, and the connections that 
will lead to the Library there. I do believe we have to 
integrate the police force of Capitol Hill. I would like to 
make sure that the transition is done in a way that doesn't 
upset the current needs of the Library while at the same time 
meeting the transitional needs of the Capitol Police. I think 
that's going to be worked out in a conference with all 
concerned if you're willing to do that. I know, Mr. Chairman, 
you've been involved in that and of course it was initially 
started by Senator Bennett. We watched it but I do get comments 
from the librarian and from the Library of Congress personnel 
and it's just better if we work it out on a consensus basis and 
get some specifics about the transition and how we achieve the 
goals both of the Capitol Police and the Library. So I hope 
you'd be willing to do that sometime after Easter, just sit 
down and work it out.
    Mr. Pickle. Be happy to, sir. Thank you.
    Senator Stevens. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Thank you, Bill. There may be additional 
questions in writing from other members who are not here. Thank 
you for your appearance.
    Mr. Pickle. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Office for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. It is our understanding that the Sergeant at Arms offers 
cellular phone/BlackBerry combination devices from both Cingular and 
Verizon; and that only the devices provided by Cingular have the 
capability to receive the emergency alerts from your office and the 
Capitol Police. Given that you offer the Verizon BlackBerry and that 
most Senate cellular accounts are on the Verizon network, what is your 
plan to enable the Verizon BlackBerrys to receive the emergency alerts?
    Answer. Although all of the major wireless carriers offer their own 
version of RIM's BlackBerry, the SAA only fully supports the original 
BlackBerry 950 and 957 devices which use the Cingular nationwide 
Mobitex ``data only'' network. This is because these are the only 
devices that provide the alert capabilities used by the Capitol Police 
and the Senate Cloakrooms.
    We are aggressively exploring a device- and carrier-agnostic 
solution that offers maximum flexibility and reduces our dependencies 
as they relate to device manufacturers and wireless network providers. 
In parallel, we have provided all carriers offering the converged 
BlackBerry devices our specific console-to-device and device-to-device 
broadcast messaging requirements that we rely upon for USCP Emergency 
Alerts and Cloakroom Vote Alerts. We have asked them to develop similar 
if not more capable solutions to meet our emergency messaging needs and 
hope that all carriers will soon be able to meet our requirements.
    We are currently testing a beta version of software that runs on 
Cingular's converged cellular phone/BlackBerry, model 7280, and 
provides the alert capabilities we currently have on the RIM BlackBerry 
models 950 and 957. We expect the final version of the software to be 
released in the April-June 2004 timeframe, at which time it will become 
the first fully supported converged cellular phone/BlackBerry device 
that receives our alerts and works with the Senate's e-mail system.
    We are also expecting to receive a beta version of the device- and 
carrier-agnostic solution by the end of May 2004. Since we have not 
seen the solution yet, we cannot say how long it will take to bring it 
into production if it meets our needs, but we are hopeful that it can 
be done by the end of the summer 2004.
    We also expect that the technology will continue toward the 
convergence of multiple functions into a single device. Although this 
is a benefit to many, you should consider the consequences of having 
all of your communications capabilities on one device that relies on a 
single communications path for all of your normal and emergency 
communications.
    Finally, to clarify an assertion in the question, we assist Members 
and their staff in ordering cellular phones or cellular phone and 
BlackBerry combination devices from whatever carrier they believe best 
meets their needs. In addition to Cingular and Verizon, we also order 
devices and service from AT&T and other cellular carriers.
    Question. In the wake of the recent ricin incident, is the Senate 
considering scanning and digitizing mail like the House of 
Representatives is doing?
    Answer. As you know, the ricin incident caused us to change our 
mail inspection, sorting, and delivery processes. Now, prior to 
delivery to Senate offices, we open, inspect and test, at offsite 
locations, all mail addressed to the Senate. These significant changes 
have made us less vulnerable to such threats in the future.
    In addition to the changes we've already made, we are investigating 
the possibility of digitizing mail and the ramifications on Senate 
operations. The House has a pilot program which has met with some 
limited success, based on low volumes of mail. As part of our always 
ongoing effort to leverage technology to improve efficiency and 
effectiveness at the Senate, we have implemented sophisticated document 
scanning and archiving capability in our Printing Graphics & Direct 
Mail (PG&DM) organization. We are currently evaluating the House 
initiative along with looking at ways to utilize the technology we have 
to address the problem of digitizing and distributing Senate mail.
    Factors to be considered:
  --The extremely high volume of Senate mail
  --The impact irradiation has on document imaging legibility
  --The sensitive nature of some of the Senate mail
  --The importance, in some cases, of preserving and delivering paper 
        artifacts
  --The delay that scanning and digitizing might introduce into our 
        mail processes--it takes about 3.5 minutes per letter and we 
        average 32,000 first class letters every day
  --Delivery modes and media
  --The potential effect of transmitting digitized mail files across 
        our network infrastructure
  --The additional cost in terms of personnel and infrastructure 
        upgrades to accommodate digitizing mail
  --Procedures, processes, and locations for storing paper mail 
        artifacts after digitization
  --Privacy and security issues.
    As we conduct this analysis, we will continue to explore new ways 
and new technologies to make Senate mail delivery more efficient, 
effective and secure.
    Question. Please give us an idea of the volume of message traffic 
that passes through our networks and the degree to which our website is 
visited.

A Typical Monday
    Web Services Statistics (Webster, Senate.gov, LIS & Senate 
Newswire)--
  --Total unique visits: 99,420
  --Total data sent to the public: 26,074,442,795 bytes
    Electronic Mail--
  --Inbound: 281,795 messages
  --Outbound: 163,609 messages
  --TOTAL: 445,404 messages
    Daily Viruses Report--
  --Mail Gateway viruses found: 39,795
  --Server viruses found: 3,664
    Question. Please give us an idea of the number of support calls 
your information systems help desk and your telecommunications services 
organizations process.

Computer Support:
    Computer trouble calls resolved annually--Approx. 18,000
    Orders and installations annually--Approx. 4,000
    Helpdesk has met or exceeded service level agreement (SLA) every 
month since May 2003 (95 percent work accomplished on time and 95 
percent of customer satisfaction ratings either ``very satisfactory'' 
or ``excellent''

Telecommunications Support (fiscal year 2003)
    Capitol Exchange calls answered--1,805,818
    Telecomm helpdesk (programming) telephones programmed--10,213
    Telecomm Coordinators--20,189 task orders accomplished
    Info Exchange--2,520,168 pages processed
    Question. Why is parking around the Capitol complex at such a 
premium?
    Answer. Nearly 400 parking spaces have been lost since the CVC 
project began. During that same period of time, Members, Offices, and 
Committees have issued or requested 445 unreserved parking permits, and 
the USCP has petitioned for another 400 unreserved permits to 
accommodate new recruits. Currently, over 2,000 unreserved permits 
exist for 1,042 unreserved parking spaces.
    Historically, Members, Offices, and Committees have been allowed to 
request unreserved parking permits as needed. Even when the CVC is 
completed, there will be less space for parking; perhaps now is a good 
time to limit the number of unreserved parking permits that each 
Member, Office, and Committee can issue as has been done with the AOC 
and the USCP.
    The USCP has exhausted its allocation and is looking for additional 
parking. A recent contract with the Fairchild Building will yield at 
least 100 spaces to the USCP, and parking lots adjacent to the 
Fairchild Building have been noted by the AOC.
    The USCP and the Parking Office are collaborating to step up 
enforcement. The AOC can help recover approximately 150 slots by 
seeking work sites off of Senate parking lots. The Parking Office is 
aggressively seeking ways to squeeze more spaces from existing lots and 
streets, including ``short stacking'' lots when demand for parking is 
high. Increased use of Metro Subsidy will help alleviate parking 
pressures as well.
    There has been discussion of building a garage on the Senate 
campus. A garage would certainly alleviate many problems and pressures 
associated with parking.
    Question. What is being done to alleviate the lengthy lines to 
enter Senate buildings?
    Answer. Several options are under evaluation by the U.S. Capitol 

Police. Those options include:
  --Designating certain entrances as ``Staff Only'' entrances between 
        the hours of 7:00 a.m. to 10:00 a.m.
  --Directing visitors to locations that do not impede staff entrances.
  --Providing additional officers at the Hart Building C Street 
        entrance to assist and conduct hand searches of staff bags.
  --Exploring additional X-ray machines at locations that can support 
        them.
    We plan to meet with the Committee on Rules and Administration to 
discuss these options prior to any implementation.

                          CAPITOL POLICE BOARD

STATEMENT OF W. WILSON LIVINGOOD, CHAIRMAN, CAPITOL 
            POLICE BOARD
ACCOMPANIED BY:
        HON. WILLIAM H. PICKLE, SENATE SERGEANT AT ARMS AND BOARD 
            MEMBER
        HON. ALAN M. HANTMAN, ARCHITECT OF THE CAPITOL
        TERRANCE W. GAINER, CHIEF, U.S. CAPITOL POLICE

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. We now move to panel two, the House 
Sergeant at Arms, Bill Livingood, accompanied by board members 
Bill Pickle and Architect of the Capitol Alan Hantman. And 
Chief of Police Terrance Gainer. And as with the first panel if 
you'd like to abbreviate your comments that will be fine since 
we've already read your written statement. And I understand Mr. 
Alan Hantman is also here, a member of the Police Force, too. 
Go ahead and start, Mr. Livingood.

                       LOC POLICE MERGER MEETING

    Senator Stevens. Mr. Chairman, could I just interrupt and 
ask if I may ask questions of these gentlemen? You heard my 
question to Mr. Pickle, are you willing to have such a meeting, 
Chief Gainer?
    Chief Gainer. Yes, Senator.
    Senator Stevens. Does that meet with your approval, Mr. 
Livingood?
    Mr. Livingood. Yes sir.
    Senator Stevens. Thank you very much.

                     STATEMENT OF WILSON LIVINGOOD

    Mr. Livingood. Mr. Chairman and Senator Durbin, I'm honored 
to appear before you today to discuss the United States Capitol 
Police fiscal year 2005 budget request. The Capitol Board 
members, Mr. Pickle and Mr. Hantman, are here with me and Chief 
Gainer is accompanying us today.
    With your permission I am just going to provide you with a 
short summary of my budget request remarks and provide the 
balance in my testimony for the record.
    Senator Campbell. That's fine.
    Mr. Livingood. World events and the continuing threat to 
our security here at home have driven an increased Capitol 
complex security. It is a very difficult job to maintain a 
legislative complex open to the public while at the same time 
ensuring the safety of the Congress, staff and visitors against 
increased dangers. The news media provides daily testimony of 
the terrors and political agendas of extremist groups. In 
today's environment the Capitol Police walk a very fine line 
and have a challenging mission--maintaining the tradition of 
open Government that we revere and demand while providing the 
maximum degree of safety and security. To accomplish this 
mission the Chief and the Department have developed an 
excellent strategic plan, one designed to meet not only the 
current needs but the future needs of the Congress.
    The budget before you today is a funding requirement based 
on this strategic plan. We ask your support and approval in 
carrying out this strategic plan which strengthens our 
vigilance, resilience by augmenting abilities in assessing 
threats, preventing unlawful acts, responding to incidents and 
supporting the general operations of the Capitol Police.

                           PREPARED STATEMENT

    In closing, I would like to thank the Committee for the 
ongoing support of the men and women of the Capitol Police and 
their continued and diligent efforts to develop a better 
security plan and operations, response forces and law 
enforcement capabilities. I'd also like to extend a personal 
word of thanks to the men and women of the Capitol Police and 
the entire Board joins me in this, in that every day they 
provide the highest possible degree of professionalism, 
commitment and service to the United States Congress. And I am 
proud to represent them today as is the rest of the Board 
before you. Thank you.
    [The statement follows:]

                 Prepared Statement of Wilson Livingood

    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2005 budget request. Capitol Police Board members, William 
Pickle, Senate Sergeant at Arms, Alan Hantman, Architect of the 
Capitol, and Terrance Gainer, Chief of Police accompany me today.
    Mr. Chairman, I would first like to thank the Committee for their 
ongoing support of the men and women of the Capitol Police and their 
continued and diligent efforts to develop better security operations, 
response forces, and law enforcement capabilities.
    World events and security threats here at home have driven 
increased Capitol complex security. It is a difficult job to maintain a 
legislative complex open to the public, while at the same time ensuring 
the safety of the Congress, staff, and visitors against increased 
dangers. The news media provides daily testimony of the terrors and 
political agendas of extremist groups. In today's environment, the 
Capitol Police walk a fine line--maintaining the tradition of open 
government that we revere and demand, while providing the maximum 
degree of safety and security. At times in the past year, the national 
threat level has been elevated in response to the potential for 
domestic terrorist activity. We have mirrored this response with our 
own Capitol-specific threat levels. Indeed, the Capitol--much like the 
White House--is both a working building and a monument, and therefore 
currently remains at an elevated threat level. It is clear from our 
history that the Capitol is a tempting target for terrorists and those 
who seek to disrupt the legislative process or strike a symbolic blow 
against the United States. We also know that terrorists choose targets 
based on certain criteria, such as symbolism, mass casualties, and high 
likelihood of success. It is our responsibility to take every prudent 
precaution that we can to remove the terrorists' likelihood of success 
with regard to the Capitol, the Senate and House office buildings, and 
for those who work and visit within the Capitol complex.
    The Chief and his staff have been very diligent this past year in 
appraising the effectiveness of police operations. They have developed 
an excellent strategic plan that is designed to meet the current and 
future needs of Congress. The budget before you today is the funding 
requirement based on this Strategic Plan. We ask your support and 
approval in carrying out this plan, which strengthens our vigilance and 
resilience by augmenting abilities in assessing threats, providing 
effective security, preventing unlawful acts, responding to incidents, 
and supporting the general operations of the Capitol Police. We cannot 
undo an incident like a suicide or truck bombing as seen abroad, and 
should act responsibly to prevent these incidents. Related to the issue 
of sufficient force strength and sufficient police facilities, recent 
Capitol Police growth and requested staffing levels have and will 
strain facility requirements; we ask for your continued support in 
solving these issues.
    In prior appropriations, this Committee funded, and the Capitol 
Police are putting into action, a Hazardous Materials Response Team. 
Most recently, this forethought and action paid off. I would like to 
publicly commend the Chief and his dedicated staff for a stellar job in 
handling the ricin incident. The Capitol Police trained, prepared, and 
were ready for this type of incident. Being prepared requires gathering 
intelligence, training, and adapting operations commensurate with 
needs. For example, the discovery of ricin in Senate mail has prompted 
a complete review of all mail protocols for both the Senate and the 
House. We are constantly reviewing and enhancing existing emergency 
plans, protocols and procedures. Regarding preparations, there is a 
renewed focus on training. In the past year, Congressional staffs have 
been introduced to the protocols relating to evacuation and shelter in 
place procedures, as well continued practice with the escape hoods.
    The Capitol Police are to be applauded for their efforts since we 
last met. Preparing for incidents and preempting threats has been a 
crucial focus under the Chief's leadership, and so the Department is 
constantly assessing its abilities and strengthening its skills. Recent 
Capitol Police accomplishments include: an in depth analysis of 
staffing, the development of a new strategic plan, core infrastructure 
systems replacement, an increase in employee training, better morale, 
and continued implementation of hazardous materials response 
capabilities. The Department's infrastructure is being shored up with 
an inside-out-approach that is challenging the whole of the 
organization to perform at a higher level.
    This transformation effort, which includes additional operational 
and administrative staffing resources and new security and information 
systems, is a thoughtful multi-year undertaking extending into the 2005 
fiscal year and relies on the budget request before you today. This 
budget ties the planning and transformational efforts of the Department 
to the requested means necessary to support this effort. Every line 
item in this budget is purpose-built to support one of the four major 
goals of the Department and the supporting strategic objectives. This 
is a tightly engineered budget, formulated with the best efforts of 
many highly trained men and women dedicated to the mission of the 
Department to protect Congress, its Members, staff, visitors and, in 
whole, the Legislative process from harm or interruption.
    Mr. Chairman, on behalf of the Capitol Police Board, I would like 
to thank you for this opportunity to appear before you today, and for 
your consideration of this budget request. Every day, the men and women 
of the U.S. Capitol Police face a huge challenge: to provide the 
maximum degree of safety and security while allowing the Capitol, 
Senate and House Office Buildings to remain open and accessible to the 
general public. And every day they succeed. I am honored to be 
associated with the men and women of the U.S. Capitol Police.
    Chief Gainer will address more specific operations and plans for 
the coming fiscal year.

    Senator Campbell. Thank you, Mr. Livingood. Chief Gainer.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you Senator, and I too will submit my 
testimony for the record and summarize it.
    I'd like to put a little context to our budget request and 
reiterate what the chairman just mentioned, that the fight 
against terrorism led by the United States and its coalition 
partners continues. We know through speeches, tapes and other 
terrorist propaganda the leadership of Al Queda has stated 
their intent to strike another blow on America. This rhetoric 
and their actions has given some insight into potential 
targets. The United States Capitol and all it stands for is 
clearly one of those targets.
    It is human nature to be optimistic but recent events have 
reinforced what intelligence has discovered over the years, 
that terrorist organizations have the means and methods to 
strike whenever and wherever. Intelligence and security experts 
both inside and outside government have stated that the United 
States Capitol remains a primary target. It is not really a 
question of if but a question of when we could expect a strike. 
What is known is that vehicle bombs, suicide bombers and 
improvised explosive devices are the weapons of choice and easy 
to execute.
    We have not limited our preventive measures to these 
traditional threats. As you know, 9/11 introduced a new method 
and means of carrying out an attack, since then we have 
increased our intelligence capability and the Department has 
personnel detailed to other Federal agencies to further 
facilitate that capability. We have people at Homeland 
Security, FBI, State Department, CIA, as well as some local 
departments. We have undertaken a number of projects to 
continue emergency outreach and notification. While many of you 
know of the emergency annunciators you may not know that we 
have over 3,600 of these units deployed through the entire 
Capitol system. In addition, we have developed a project to 
deploy a complex-wide public address system. This project will 
provide the critical means to send out emergency notifications 
to all public spaces, evacuation and assembly areas, parking 
garages and other areas. We expect this project to be completed 
in December of this year; we're on target to reach that 
objective.
    We are, however, vulnerable around this Capitol. As the 
committee is aware, there have been a number of studies done 
over the years; they have all commented on our openness to the 
largest vulnerability, in particular there have been five 
studies by various security experts that have recommended the 
installation of a fence around the Capitol square. Even a 
recent staffing analysis conducted by the General Accounting 
Office in February 2004, included the installation of a fence, 
as a recommended option. This latest recommendation goes a step 
further and recommends a fence around all the office buildings, 
and I quote from that report. ``An aesthetically pleasing 
perimeter security fence could be constructed around the 
Capitol Building grounds. This would markedly increase security 
within and around the Capitol Building, Members, staff and 
visitors.'' The recommendation of a fence has been discussed 
for many years and was originally proposed in a 1985 document 
called the ``Whip's Plan''. While the decision on the fence 
will not be decided here, the impact from the lack of it is 
felt every day and is shown in the numbers of required 
personnel in our budget. We are constantly required to increase 
the use of manpower and technology to keep this legislative 
branch safe and secure while ensuring continuous operations 
during these evolving threats, as well as maintaining an open 
and free Capitol.
    It is the men and women of this Department who selflessly 
provide the first line of defense to protect this institution. 
Most Federal agencies have layers of defense to prevent 
attacks. The success of a terrorist attack on one of our 
buildings, once initiated, will be deterred by that officer 
standing at the entrance of the building. While the use of 
technology aids in detection and deterrence, it was a police 
officer that prevented Russell Weston from continuing through 
the Capitol. And it was police officers who first responded to 
both the anthrax and ricin.
    Accordingly, our budget request of $291.6 million 
represents a reasonable, necessary and balanced plan to 
directly assess the threats of today and proposes the use of 
resources to ensure the protection of the Congress, its 
Members, staff and visitors in the process. The implementation 
of our strategic plan, which this budget supports, is a prudent 
plan to help ensure the safety of our Capitol. The budget 
request represents a 33 percent increase over the fiscal year 
2004 net appropriation. It's a lot. However, when the $12.7 
million from the fiscal year 2003 supplemental, which as 
directed by the committees was used to support fiscal year 2004 
operational needs is taken into consideration, the requested 
increase is $59.1 million or 25 percent and is still 
significant.
    This increase provides $12.7 million for 6 months' funding 
for 213 sworn and 155 civilian additional positions. In the 
personnel area $5.5 million is requested for a sworn pay scale 
adjustment; $3.3 million for a 6-month annualization of the 75 
civilian positions provided in fiscal year 2004 and $12.2 
million for the cost of living adjustments, rate increases and 
health benefits.
    Other significant increases include $3.1 million for the 
Inauguration; $8.1 million for the replacement of escape hoods; 
$3 million for a new accounting system; $2.7 million for 
security at the new legislative branch alternate computer 
facility and $1.8 million for wireless data interoperability 
infrastructure. But I need to point out this is not just a wish 
list of our managers. We have a zero-base budget process. 
Originally, the general expense requests totaled over $100 
million, which were reduced by some 40 percent to the $59.9 
million included in this budget.
    As with any organization we realize there is always room 
for improvement. We will continue to strive to strengthen and 
augment our prevention and response capabilities, to review the 
current environment, to improve the coordination with our 
congressional community, to emphasize training of all our 
employees and to have substantially filled all authorized 
civilian positions by the end of this fiscal year, and to make 
progress with our business systems' modernizations.
    And finally, although facilities are the responsibilities 
of the Architect of the Capitol they certainly are critical to 
our operations. In February 2004 the Architect of the Capitol 
leased approximately 100,000 square feet of space at 499 South 
Capitol Street SE, the Fairchild Building, as an interim space 
solution. This facility will go a long way to alleviate our 
space constraints at our headquarters building when we move in 
there.
    As the Chief of the Capitol Police I take great pride in 
the many years of service that this Department has provided to 
the Congress. Building on that legacy, we at the Capitol Police 
look forward to continuing to safeguard the Congress, its staff 
and visitors. And we look forward to working with the Congress 
and this committee to see what we can do with our budget.

                           PREPARED STATEMENT

    And finally, Senator, I might say on behalf of the men and 
women, as we wind toward the conclusion of your particular 
career, thank you for your support of the men and women of the 
Capitol Police. Your kindness to our officers and the people 
who support them is well recognized. Your help in getting our 
Harleys is lauded by all those riders and now the horses that 
recently visited our Capitol and will be out galloping come 
this May, we definitely owe a debt of gratitude to you. Thank 
you.
    [The statement follows:]
                Prepared Statement of Terrance W. Gainer
    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2005 budget request.
    I would like to thank the Committee for their continued support of 
the Capitol Police and our efforts to provide world-class security and 
law enforcement services to the Congress. As the foremost symbol of 
American representative democracy, the Congress, its Members, 
employees, visitors, as well as public buildings and operations are a 
highly visible target for individuals and organizations intent on 
causing harm to the United States and disrupting the legislative 
operations of our government. We are the first line of defense and we 
take our job very seriously.
    Expansion, as well as consistently fine tuning how we currently 
operate, is imperative to ensuring that we continue to provide the 
safest and most secure environment to enable Congress to fulfill its 
Constitutional responsibilities, and to protect those who work and 
visit the Capitol complex. We face a daunting task, and a high 
workload.
    During fiscal year 2003, the Uniformed Services Bureau greeted and 
screened over 7.4 million staff and visitors, the K-9 unit conducted 
more than 40,000 explosive detection sweeps, the offsite delivery 
center conducted 19,081 vehicle and cargo inspections, the Construction 
Security Division conducted 85,870 vehicle inspections in calendar year 
2003, we made 553 misdemeanor and felony arrests and 982 traffic 
arrests, 87 weapons and contraband items were confiscated, and the 
Hazardous Devices section conducted over 2,000 bomb searches and 
responded to over 430 suspicious package calls. Our specialized units 
also responded to the recent Ricin incident. The Department used our 
Hazardous Incident Response Division teams and our recently specially 
trained officers for the initial response. This incident quickly grew 
to include numerous federal and military agencies involved in the 
resolution. The Department's incident management team seamlessly joined 
our federal partners to successfully manage this biological threat. Our 
capabilities in this area have greatly improved since the 2001 Anthrax 
attack.
    The fight against terrorism led by the United States and its 
coalition partners continues. Recent events in Europe, Russia, 
Afghanistan, Iraq, Israel and specifically the Madrid bombings 
illustrate that the global war on terrorism has not diminished. As the 
leader of this endeavor, the United States is the number one target of 
al-Qa'ida, its surrogates, and other Islamic radicals. In speeches, 
tapes and other terrorist propaganda, the leadership of al-Qa'ida has 
stated their intent to strike another blow on our homeland. This 
rhetoric and their actions, have given some insight into potential 
targets. The United States Capitol and all it stands for, is clearly 
one of those targets.
    It is human nature to be optimistic, but recent events have 
reinforced what intelligence information has told us for years, that 
terrorist organizations have the means and the methods to strike 
whenever and wherever. Intelligence and Security experts both inside 
and outside government have stated the U.S. Capitol remains a primary 
target. It is really not a question of if, but when the United States 
Capitol Police will again be called to respond to another terrorist 
attack. What is known is that vehicle bombs, homicide bombers, and 
improvised explosive devices are the weapons of choice and easy to 
execute. The Department continues to take unprecedented steps to 
counter these threats and is considered a leader in many areas among 
federal and private institutions.
    For example, we recently developed and distributed a comprehensive 
procedure for officers responding to a homicide bomber. One of the 
first in the nation to address this threat, we have developed with 
support from this Committee, a design for a comprehensive Truck 
Interdiction Program. This project will use the latest, leading edge 
technology to detect and interdict a threat before it reaches our 
doorstep. We have deployed the latest in explosive detection equipment 
at all our buildings and have increased the number of our K-9 explosive 
teams.
    But we have not limited our preventive measures to just traditional 
threats. As you well know, 9/11 introduced a new method and means of 
carrying out an attack. We have increased out Intelligence capability 
and the Department has personnel detailed to other federal agencies to 
further enhance that capability. The Capitol Police has personnel 
working as liaisons at major operations centers and have partnerships 
with the Department of Homeland Security, FBI, and others. Because of 
all these enhancements, the Capitol Police is able to respond to 
potential threats in a real-time manner.
    But we have not solely focused our notification efforts internally. 
We have taken a number of steps to provide information to the 
Congressional Community. The recent Ricin incident illustrated the 
benefit of having a fully functioning Capitol Police Command Center. 
The newly upgraded Center provided operational workspace for the 
Capitol Police Incident Command, as well as response elements from the 
Executive Branch, the Senate, the House, the Architect of the Capitol, 
the Sergeant at Arms Offices, the Office of the Attending Physician and 
many others. Those that remember our capabilities after 9/11 and the 
Anthrax attack saw a drastic change in our capabilities, which were 
fully used during this incident.
    We have undertaken a number of projects to continue emergency 
outreach and notification. While many of you now know of the emergency 
annunciators, you may not know that there are over 3,600 of these units 
deployed and the entire system is maintained and operated by the United 
States Capitol Police. In addition, we developed a project to deploy a 
complex wide Public Address System. This project will provide the 
critical means to send out emergency notifications to all public 
spaces, evacuation assembly areas, parking garages and other areas. We 
expect that this project will be completed by December 2004. We are on 
target to meet this objective.
    As the Committee is aware, there have been a number of studies done 
over the years. They all have all commented that our openness is the 
largest vulnerability. In particular, there have been five studies by 
various security experts that have recommended the installation of a 
fence around Capitol Square. Even a recent staffing analysis, conducted 
by the General Accounting Office in February 2004 included the 
recommendation of the installation of a fence. This latest 
recommendation goes a step further and recommends a fence around the 
office buildings as well. And I quote ``An aesthetically pleasing 
perimeter security fence could be constructed around the Capitol 
Building grounds. This would markedly increase security within and 
around the Capitol Building Members, staff, and visitors.''
    The recommendation of the fence has been discussed for many years 
and was originally proposed in a 1985 document called the Whip's Plan. 
While the decision of the fence will not be decided here, the impact 
from the lack of it is felt everyday and is shown in the numbers of 
required personnel and our budget. We are constantly required to 
increase the use of manpower and technology to keep the Legislative 
Branch, safe, secure, and while ensuring continuous operations during 
these evolving threats, as well as maintaining an open and free 
Capitol.
    It is the men and women of this Police Department who selflessly 
provide the first line of defense to protect this institution. Most 
federal agencies have layers of defense to prevent attacks. The success 
of a terrorist attack at one of our buildings, once initiated, will be 
determined by that officer standing at the entrance of the building. 
While the use of technology aids in detection and deterrence, it was a 
police officer that prevented Russell Weston from continuing through 
the Capitol; and it was police officers that first responded to both 
the Anthrax and Ricin attacks.
    With any organization, we can and need to make improvements, and we 
actively engage in self-assessments and critical reviews at the 
conclusion of each project and incident to determine what went right 
and what can be improved and to incorporate those lessons learned into 
the fabric of our operations. This mechanism allows us to gauge our 
success in a positive manner. For example, we are implementing a 
process of self-testing where random, unannounced contraband will be 
introduced to test our detection and response capabilities. This self-
assessment program, and the proper use of results, will strengthen our 
portals and provide a safer environment for all who work and visit the 
Capitol complex.
    We work very closely with the Sergeants at Arms and with leadership 
of both the House and the Senate to ensure that the security of the 
Congress is appropriately managed. The ability of the U.S. Congress to 
meet its constitutional responsibilities is intertwined with the 
ability of the Capitol Police to meets its mission. The Capitol Police 
is ready and willing to meet the challenge this changing environment 
poses to the structure of our operations, and we recognize continuous 
improvement and flexibility are key to maintaining our professional 
edge. The USCP is a stronger and better-organized agency than it was 
the last time we met. We have completed a new five-year strategic plan, 
a performance plan, an annual report and have completed an in-house 
staffing analysis to provide a road map for improvements and practical 
strategies for achievement of our mission and goals. The staffing 
analysis provides a basis for discussion of our manpower needs and 
continues to be reviewed by the General Accounting Office (GAO). 
Accordingly, we used the staffing analysis as the basis of our fiscal 
year 2005 personnel request. However, the GAO review and our ability to 
stand up to their scrutiny will provide this Committee, and our other 
oversight committees, with information with which to make decisions. I 
welcome the review and input we are receiving related to this effort.
    We welcome the input of our stakeholders and appreciate the input 
of the GAO. We worked closely with the GAO in developing our new 
strategic plan. The mission, vision, values, and goals established in 
the strategic plan serves as a management tool to guide the USCP as we 
carry out our mission each day and continue preparing for the future. 
We have linked both our staffing request and all of our general expense 
items to the strategic plan. In addition, performance appraisals for 30 
of our top managers are directly tied to the strategic plan that has 
become a working document in the Department as Lieutenants and above 
and civilian equivalents recently underwent training to ensure an 
understanding of the function and effect of the strategic plan.
    Our budget request of $291.6 million represents a reasonable, 
necessary and balanced plan to directly address the threats of today 
and proposes the use of resources to ensure the protection of Congress, 
its Members, staff, visitors, and the legislative process into the 
future. The implementation of the USCP strategic plan, which this 
budget supports, is a prudent plan to help ensure the safety of the 
Capitol community and the uninterrupted continuation of Congressional 
operations.
    The budget request of $291.6 million represents a 33 percent 
increase over the fiscal year 2004 net appropriation. However, when the 
$12.7 million from the fiscal year 2003 supplemental, which as directed 
by the Committees was used to support fiscal year 2004 operational 
needs, is taken into consideration the requested increase is $59.1 
million or 25 percent. This increase provides $12.7 million for six 
months' funding for 213 sworn and 155 civilian additional positions. In 
the personnel area, $5.5 million is requested for a sworn pay scale 
adjustment, $3.3 million for the six-month annualization of the 75 
civilian positions provided in fiscal year 2004, and $12.2 million for 
the COLA adjustments, and within grade, and health benefit increases. 
Other significant increases include $3.1 million for the Inauguration, 
$8.1 million for the replacement of escape hoods, $3 million for a new 
accounting system, $2.7 million for security at the new Legislative 
Branch alternate computer facility, and $1.8 for wireless data 
interoperability infrastructure.
    Mr. Chairman, I want you to know that we are aware of the funding 
constraints that this Committee may face. In that light, we have 
developed a detailed prioritization of the entire budget request. We 
will, of course, work with the Committee to meet any funding challenges 
the Committee faces and to assure that the most critical resources we 
require are provided to ensure the protection of the Congress and the 
legislative processes. I should point out that our budget request is 
not a ``wish list'' of our managers. We internally reviewed general 
expense requests that totaled over $100.4 million and reduced that 
amount by $40.5 million to the $59.9 million included in the fiscal 
year 2005 budget request.
    As with any organization, we realize there is always room for 
improvement. We will continue to strive to strengthen and augment both 
our prevention and response capabilities. We continue to review the 
current environment, our policies and practices, and the resources and 
tools available to the USCP to ensure that the level of Congressional 
protection is the best it can be. We continue to improve the 
coordination within our Congressional community and with other law 
enforcement entities. We are continuing to emphasize training of all of 
our employees. In fiscal year 2003, USCP employees participated in over 
136,000 hours of training.
    Training continues to be integral to the U.S. Capitol Police. This 
past January marked the beginning of our new Diversity Training 
Program. All Department employees will receive 8 hours of training 
designed by specialists in Diversity issues. The feedback on this 
training has been overwhelmingly positive.
    On that note, I would like to report on the Department's effort to 
recruit under-represented groups. In fiscal year 2004, the Office of 
Human Resources initiated a targeted recruiting campaign that focuses 
on recruiting activities in under-represented groups, while maintaining 
our posture in the female and African-American arenas. These activities 
include job fairs, educational institutions, professional 
organizations, and publications that will result in an increase in our 
targeted candidate pools. OHR has received input from several 
congressional offices/groups in this endeavor.
    I would like to point out that per Department of Justice 
statistics, in June 2002, the USCP had the second highest percentage of 
black police officers of all federal law enforcement. We recently 
promoted approximately 40 supervisors to the rank of sergeant and 
lieutenant. This group of supervisors reflects a very diverse group of 
individuals who will lead the Department into the future.
    We continue to make progress on our administrative and support 
side. We got off to a slow start on hiring the additional civilian 
staff that has been recently provided. To get this back on track, a new 
Human Resources director was hired in August 2003. Since that time, we 
have made a concerted effort to assess existing staff competencies and 
reposition them accordingly as well as hire experienced and seasoned 
individuals into key leadership positions. We have also procured 
significant contract support to ``jump-start'' work in functional areas 
identified by GAO as requiring improvement such as policy development, 
workforce planning, performance management, and time and attendance 
systems. In order to ensure that we keep our improvement efforts on 
track, we have linked key HR activities to the agency's strategic plan 
and developed corresponding performance measures.
    We are committed to having substantially filled all authorized 
civilian positions by September 30, 2004. We are developing an internal 
Investment Review Board (IRB) process to review and prioritize major 
resource requirements. In our Information Technology area, we continue 
to make progress with our business systems modernization. We are in the 
process of hiring an Information Security Officer and have contracted 
for an IT Security Assessment to ensure the appropriate security of our 
systems.
    Although facilities are the responsibility of the Architect of the 
Capitol (AOC), they are critical to our operations. In February 2004, 
the AOC leased approximately 100,000 square feet of space at 499 South 
Capitol Street S.E. as an interim space solution. This facility will go 
a long way to alleviate space constraints at our Headquarters building. 
Most of our administrative functions and the Capitol and House 
Divisions will be housed in the new facility. I would like to thank the 
Architect for his continued support, and go on record that I fully 
support the funding he has included in his budget for the acquisition 
of a new off-site delivery facility and for the maintenance of our 
existing facilities. Again, we will work with the Committee and the AOC 
on what our most urgent priorities are, and what can realistically be 
funded within the limited resources available to the Committee.
    Whether it is effective communications, effective incident 
response, effective staffing strengths, or simply effective operations, 
we value being the best. The men and women of the Capitol Police are 
talented, motivated, and engaged professionals who take great heart in 
protecting this Congress.
    As Chief of the Capitol Police I take great pride in the many years 
of service this Department has provided to the Congress. Building on 
that legacy, we at the USCP look forward to continuing to safeguard the 
Congress, staff, and visitors to the Capitol complex during these 
challenging times. And we look forward to working with the Congress and 
particularly this Committee.
    I thank you for your time and am ready to address any questions you 
may have.

                             SECURITY FENCE

    Senator Campbell. Thank you, Chief. I'm just leaving here, 
I'm not finishing a career. I'm going to climb a few mountains 
somewhere else. I've enjoyed working you, the Capitol Police 
and Bill with your Department, too. I look forward to coming 
back someday though and hope there's somebody that's going to 
really take a particular personal interest in the Capitol 
Police as it has been mine. Maybe you have to have been a 
policeman or a sheriff's deputy to have that kind of an 
interest. I don't know, but it was right when I first got here 
I wanted to make that one of my priorities and finally I was in 
a position where I could help a little bit.
    Let me ask you a few questions, here. First of all, you 
mentioned this fence. I tell you, I think most Americans would 
just rebel at the thought of their Capitol being fenced. 
There's got to be, in this high-tech way we operate now, 
methods of doing things without a big ugly fence around this 
place. I know that in some cases there are types of bushes and 
plants and things that can be planted that are just almost 
impregnable. I mean, you almost can't get through them. My wife 
has rose bushes around our house and if we don't trim them back 
every year you can't even get through the front door of our 
house, for obvious reasons; you just cut yourself to ribbons 
with those thorns. So I hope whoever's making the decisions on 
that thinks of some more aesthetically pleasing way of 
surrounding this place rather than a wall or a fence. I think 
that really flies in the face of what Americans want in their 
Capitol. You know the openness that we've always expected of 
our Capitol sends such a wonderful message to the world, we 
have to find that balance, between security and not looking 
like we're in a siege or something. And I know that there are 
brighter minds than mine working on that or will be working on 
that but I hope they think about that.

                             BUDGET FREEZE

    We've been asking all the agencies and you heard me ask the 
one that was on the table before you about what happens if we 
cannot provide a lot of the money that they're asking for and 
your significant increase includes 358 additional staff. If we 
cannot reach that and we have to freeze your budget at last 
year's level, do you have your budget prioritized to the 
absolute must-haves and the things that could slide for a year 
and things of that nature?
    Chief Gainer. Senator, we sure do but to freeze at the 
number last year would dramatically require the reduction in 
force of sworn personnel.

                             OVERTIME HOURS

    Senator Campbell. What are the shifts that the officers are 
working now? During the big anthrax scare and some other times 
they were working literally every day and 12-hour days and 
longer. What's the normal shifts they're putting in now?
    Chief Gainer. As a rule they're on an 8-hour schedule. But 
I also should say a large portion of the Department probably 
works another 8-hour day, one of their days off. So almost 
everyone is working some amount of overtime and fortunately 
they volunteer for it, as a rule.
    Senator Campbell. You manage to staff enough just with 
volunteers, too? Have you had to force any officers to work the 
days off?
    Chief Gainer. On occasion, Senator, there are probably some 
unhappy families.

                         STAFFING JUSTIFICATION

    Senator Campbell. You're requesting a total of 2,361 staff 
for fiscal year 2005, consistent with your staffing analysis 
put together last year. At the request of Congress the General 
Accounting Office has contracted for an analysis of the Capitol 
Police staffing plans. That contractor in its February report 
indicated that there was insufficient justification, such as a 
shortage of workload data, for roughly 300 new positions, of 
which 186 would be in the Uniformed Service Bureau. What is 
your reaction to that analysis?
    Chief Gainer. Well, we worked very closely with the GAO and 
their contractor, SAIC, who did that report for them. And I 
think overall it's a mixed reaction. They used a red, yellow, 
green light system. There were quite a few of the positions 
where they felt that we provided sufficient justification and 
information for them to make a decision, and then there were 
relatively few red lights, to use their parlance, where they 
felt there was not the justification or sufficient support. In 
the area of their yellow lights there were quite a few; we 
supplied them additional information, we're responding to their 
report in writing and we're working with the Board to further 
clarify what justification is needed.

           HIRING OF FISCAL YEAR 2004 NEW CIVILIAN EMPLOYEES

    Senator Campbell. We provided 75 additional civilian 
employees last year. What's the status of those employees that 
we did provide for? They've all been hired?
    Chief Gainer. They have not all been hired. But what we did 
do, about 6 months ago, was promote a new Director of Human 
Resources and she has retooled Human Resources substantially. 
Human Resources, along with our finance folks, have identified 
the bottlenecks to that hiring process and we believe we are on 
track to have all the hirings done for 2004 and also from 
carryover from 2003 by the end of the fiscal year.

                        FAIRCHILD BUILDING LEASE

    Senator Campbell. A lease was recently signed by the 
Architect of the Capitol for several floors of the Fairchild 
Building for the Capitol Police. Does that accommodate your 
space needs?
    Chief Gainer. Not totally. Right now we occupy probably 
just under 200,000 square feet and that is largely 
insufficient. The master plan called for some 500,000 square 
feet. What the Fairchild Building provides us is about 101,000 
square feet and it will go a long way to easing the pressure in 
our headquarters building, the Senate and House office 
buildings as well as the Capitol. It may very well free up some 
space in the Capitol Visitor Center. But I think the bottom 
line, Senator, I should point out, we see that Fairchild 
100,000 square feet as very, very temporary and not a long-term 
solution to the needs of the Department.

                              FIRING RANGE

    Senator Campbell. I see. And you requested funding through 
the Architect for a firing range. You do the training now over 
there way down in the bowels of the Rayburn Building somewhere.
    Chief Gainer. We do.
    Senator Campbell. I understand. Well, if we are unable to 
provide those funds is that where they'll continue training, 
where they are now?
    Chief Gainer. Well, that will be part of it but that again 
is not enough. The Congress was very good, especially then to 
the Department of the Treasury and now Homeland Security, in 
securing a large facility at Cheltenham, Maryland, where a 
large firing facility was designed and built. Unfortunately, 
when that was designed and conceived only some 20 agencies were 
going to use it; with the recomposition of Homeland Security 70 
plus agencies are now going to use it. So we're all kind of 
scrambling to see what piece of that we can get. We have met 
with the Board and Senate staff, Homeland Security personnel to 
see if we can work out a solution where we would have some 
rights of priority at that facility. If that works out then the 
absolute need for a range on-base would not be necessary.

                           LOC POLICE MERGER

    Senator Campbell. I see. I believe, like Senator Stevens, 
that we're at an impasse between the Library of Congress 
objectives and the Capitol Police too, and I'm sorry you 
haven't been able to get that all together and in sync. But I 
just wanted to identify myself, associate myself with his 
comments that I look forward to trying to work this difference 
of opinion out about how we merge one department with the other 
one. So I just wanted to tell you that.
    Chief Gainer. Thank you.

                           MOUNTED HORSE UNIT

    Senator Campbell. You mentioned the mounted unit. Are they 
are on the grounds now?
    Chief Gainer. Actually, they paid a visit to us just last 
week and I have to tell you they were mobbed by people wanting 
to get pictures with them. They're still in their training.
    Senator Campbell. I'd like to say ``I told you so.''
    Chief Gainer. Yes sir. They graduate April 16 and we hope 
maybe that your schedule will permit you to be part of that. We 
have eight officers and two sergeants in that school; we've 
lost a couple through riding mishaps and they decided not to 
continue riding. We have the equipment, we're in the midst of 
buying the horses.
    Senator Campbell. Did somebody tell them they're supposed 
to get back on when they fall off?
    Chief Gainer. Actually, they did right away but the next 
day they decided not to get back on.
    Senator Campbell. Oh, they shouldn't have been there in the 
first place if they decided not to get back on. And they're 
stabled with the Park Service horses down on the Mall?
    Chief Gainer. That's what we're working on.
    Senator Campbell. That's not where they are now, however?
    Chief Gainer. Right now, Senator, they're still at the Rock 
Creek training stable.
    Senator Campbell. I see.
    Chief Gainer. We're working out the agreement to determine 
at which stable they will be.
    Senator Campbell. So they're just training them and they 
brought them down?
    Chief Gainer. Right. We do have three vehicles and three 
trailers. But one of the concerns is with the World War II 
monument opening up and whether the Park Police will retain 
that stable on the Mall is being discussed.
    Senator Campbell. Is the Park Service Mounted Unit doing 
some of the training of these officers?
    Chief Gainer. They're conducting the training, it's all 
under their direction and their authority, their expertise.

                             TRAINING HOURS

    Senator Campbell. This is a broader training question--your 
in-service training is about 80 hours a year, is that correct?
    Chief Gainer. It is. And in fact, we really probably exceed 
that now with all the specialized training. Last year we 
collectively trained for about 200,000 hours.
    Senator Campbell. How much training do those mounted 
patrolmen go through?
    Chief Gainer. That's a 10-week program.
    Senator Campbell. Ten weeks. Okay, thanks. Senator Durbin.

                        ESCAPE HOOD REPLACEMENT

    Senator Durbin. Chief Gainer, can you or somebody on the 
Board explain escape hood replacement costs of $8 million.
    Chief Gainer. Yes. When the hoods were purchased they 
appeared to have a 4-year shelf life. We're hoping that's still 
the case. But what we've seen with the escape hoods is that 
they're very difficult to put on; and it is impossible to 
communicate with them on. So, we and others, have been working 
with the authorities to see if there's a better hood to be made 
available. The hope is that there would be; the National 
Certification Group is looking at different hoods. We hope that 
if a new hood becomes available it will be easier for adults 
and children to wear. If that's the case, we've made the 
preliminary decision rather than replace the current hoods, 
which have a 4-year life, or 3 years left now, rather than 
doing that piecemeal and give someone an older, less viable 
escape hood we would convert all to new escape hoods. If 
there's not a new one discovered then we probably only need to 
replace a quarter of those and we would not need the full $8.1 
million.
    Senator Durbin. What was the original cost of the escape 
hoods?
    Chief Gainer. The total cost? Excuse me. We purchased 
45,000.
    Chief Gainer. We purchased 45,000 for about $4.7 million. 
But the price of them has gone up.
    Senator Durbin. Obviously.
    Chief Gainer. Yes sir. We're anticipating getting higher 
quality hoods.
    Senator Durbin. What's to tell us that 1 year after we 
purchase these we've decided we shouldn't have purchased them 
and $4.7 million may have been wasted? What have we learned?
    Chief Gainer. Well, that was the best product at the time. 
And it was essential, I think, given the facts that everybody 
was dealing with that we purchase something. Actually, even if 
there was a better hood, in theory you could use these for the 
next 4 years if one trains on them. Most of the staffs of both 
the House and the Senate, have been excellent on training with 
the existing hoods. Some others have been a little bit more 
reticent to come to the training.
    Senator Durbin. I resemble that remark.
    Chief Gainer. But it is difficult to put on and impossible 
to communicate with it on.
    Senator Durbin. That may be a blessing with some elected 
officials. Let me--well, it's a concern. I don't know how I 
explain this at home, that we bought 45,000 for $4 million plus 
and 1 year later, even though they have 3 years of life left in 
them we've decided to junk them and to spend two times as much 
to replace them. If technology is moving that fast to justify 
it I suppose that's the argument but it appears that a decision 
was made and it's being countermanded within 1 year and I'll 
bet you that when the first $4 million was justified it was for 
a 4-year hood. So that's what we're going to be faced with so 
it seems like a pretty dramatic reversal in a short period.
    Chief Gainer. But it's really still under analysis, 
Senator, so there's no final decision at all.

                                 FENCE

    Senator Durbin. Let me say a word about this fence. I agree 
with Senator Campbell completely. I've been around here long 
enough and I think he has too to have seen some dramatic and 
depressing changes in terms of life on Capitol Hill that 
reflect the reality of threat. And I can recall the bombing in 
the Senate corridor when I was just a brand new Member of the 
House of Representatives; I heard it in my apartment just a 
block or two away. And we started changing things the next 
morning and they've never really stopped; 9/11, of course, was 
the major catalyst of change here. I for one hope that we don't 
move toward a security fence as I envision it. To call 
something an aesthetically pleasing security fence, it's a 
little hard for me to understand where they're coming from with 
this. And is it not true that we're investing substantial sums 
of money on Capitol Hill--maybe this goes to the Architect--for 
the construction of these bollards and other things, 
acknowledging that traffic would be within this complex? Is 
this going to be another escape hood, where we'll say, well, 
now we're going to build the multi-million dollar fence, we 
probably shouldn't have built the bollards because there won't 
be that much traffic within the perimeter of the fence. I don't 
know who can answer that, but is anybody considering that 
aspect?
    Chief Gainer. Well just, from my perspective, Senator, 
they're not incompatible. I guess all I'm suggesting, both here 
and in the House, and I did this in consultation with the 
Board, was to at least renew the discussion about this. I think 
it became most clear to me as we see the different bombings 
that are happening around the world. We have done a lot toward 
standoff on trucks and we've done a substantial amount for 
standoff on vehicles but unfortunately we see the suicide 
bombers, whether it's in England, Ireland, Israel, Palestine, 
Jordan, there are people bringing those packages and it is our 
concern that those small-type of explosives, which will only 
injure scores rather than the 9/11 type, is still a real 
danger. Frankly, as I listen to the 9/11 Committee, in their 
analysis, I just thought it was appropriate that we talk about 
this again because heaven forbid if something happens here on 
the Hill. Who knows what would have happened if 1 year before 
9/11 someone would have come in and said maybe we ought to seal 
all the doors on airplanes. I know it seems bizarre, it doesn't 
look good, but I think we need to lay it out and decide whether 
we want to accept the risk or not.
    Senator Durbin. I think it's entirely appropriate that you 
raised the issue. But I'm struggling with the concept that says 
we will have a perimeter fence to limit access to the Capitol 
Hill area, and that means that we'll have fewer Capitol Hill 
police, for example, who have to worry about access points; 
there will be fewer access points with such a perimeter fence 
and yet we can still justify the bollards for traffic that's 
going to pass through this secure area? I think those two 
things are inconsistent. Either a perimeter fence limits access 
and the bollards then become redundant or unnecessary or it 
doesn't limit access and you ask why you have it. So I need to 
work with you on that to understand this a little better.
    Chief Gainer. I know we're just a long way from even 
touching on this, but if you can envision how the White House 
is, where there are bollards along Pennsylvania Avenue and the 
bordering streets and then the fence. The fence is really 
designed less for vehicles and more for people. Unlike the 
White House, the vision for this is where we would have 
sufficient openings and officers, so the access for people 
would be freeflowing. Then we would know anybody inside the 
perimeter of the Capitol would be completely bomb-free, 
weapons-free and then they'd have complete access to the entire 
Capitol.
    Senator Durbin. I guess my misunderstanding was I thought 
initially they'd said that the fence would be outside of the 
office building area.
    Chief Gainer. That was one of the suggestions. Now again, 
it was at least one of the suggestions, you're correct.
    Senator Durbin. Before we get into all the details which 
would be a long discussion, I would just weigh in with Senator 
Campbell. I just hope that we don't reach that point where 
we're fencing off the Capitol area. I want to try to find some 
way to achieve security. Short of that, if it becomes a 
necessity then frankly we have to accept it.

                       SWORN PERSONNEL REQUESTED

    May I ask you this. The 1,800 sworn personnel, 1,805, if 
I'm not mistaken that has been a goal for several years, that 
the Capitol Police would reach that level of sworn personnel.
    Chief Gainer. Approximately, yes.
    Senator Durbin. Yes. And so the last several hundred that 
you're asking for this year, 200 or whatever it happens to be, 
is in pursuit of that goal that we set a number of years ago. 
Is that correct?
    Chief Gainer. Correct.

                          RECRUITING OFFICERS

    Senator Durbin. There was a time not too long ago when I 
asked either you or your predecessor how many applications need 
to be taken before you find someone who can be qualified to 
serve as a Capitol policeman? What is the current ratio, do you 
know?
    Chief Gainer. It's about 1 out of 10 and sometimes it goes 
1 out of 18. We do have some great candidates who are applying 
and maybe the job market helps us in that regard, but it's 
about 1 in 10.
    Senator Durbin. And what are the major reasons why 
applicants are not accepted?
    Chief Gainer. It is more a matter of being best qualified, 
it's really not that people are unqualified, it is in fact they 
are less qualified. We do the written test, the psychological 
and the background.
    Senator Durbin. Drug test?
    Chief Gainer. Yes sir. And a polygraph.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Durbin. I see. I have some questions for the record 
but thank you very much, Chief.
    Chief Gainer. Thank you, Senator.
    Senator Campbell. I have no further questions. There may be 
some written ones by other committee members. But I just want 
to say in parting it's been terrific working with both of you. 
Thank you.
    Chief Gainer. Thank you, Mr. Chairman.
    Mr. Pickle. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. In 2001, the Capitol Police developed a plan to remedy 
administrative deficiencies identified by the GAO. In January GAO 
completed its semi-annual review of the status of these issues. GAO 
found that ``the overall pace of progress on USCP's strategic 
initiatives continues to be limited.'' Areas such as developing 
procurement policies and procedures, implementing a performance 
management system, and improving workforce planning were among the 
deficiencies noticed. Can you describe briefly how you will meet the 
milestones the Department itself set forth in 2001 to improve USCP 
administrative functions? How many new personnel are needed to 
implement these milestones? What is the status of hiring a new Chief 
Administrative Officer--a position that has been vacant for about 
three-quarters of a year?
    Answer. Mr. Anthony Stamilio was selected for the CAO position and 
reported for work on May 4, 2004.
    Significant progress has been made in administrative operations 
since the creation of the CAO in 2001. As reported by GAO in their 
semi-annual reviews of our administrative operations the following 
achievements have been made:
  --Completed a strategic plan for fiscal years 2004 through 2008 for 
        the Department, including departmental goals, objectives, and 
        associated performance measures.
  --We have stabilized and are making significant improvements in 
        financial management, including the development and 
        implementation of policies and procedures to control and guide 
        the appropriate use of funds. We have requested the 
        consolidation of our Salaries and General Expense 
        appropriations and have requested funding for a new accounting 
        system to continue the progress we have initiated.
  --We have implemented a zero based budget approach for all Department 
        operations to ensure budget requests are appropriately 
        developed and justified each year.
  --We have developed an IT systems architecture as a road map for the 
        deployment of technology within the Department and have 
        replaced and are in the process of replacing a significant 
        number of antiquated systems throughout the Department as well 
        as leveraging opportunities for systems augmentation and 
        development for new operational and administrative 
        capabilities.
  --Hired contract and additional staff, including a new Director and 
        senior staff in the Human Resources area to tackle the backlog 
        of filling positions and policy development.
    Areas that require additional work:
  --The GAO has identified the employment of critical administrative 
        staffing with the right mix of skills and competencies as the 
        number one impediment to the USCP achieving its administrative 
        goals.
  --Other areas for improvement include further development and 
        implementation of policies and procedures, completion of an IT 
        acquisition strategy, implementation of a competency based 
        performance management system, as well as developing a robust 
        workforce planning capability.
    We acknowledge that excessive operational demands and significant 
staffing shortages continue to consume critical administrative 
resources and impeded or slow progress toward reaching strategic goals 
and initiatives.
    We also understand the decisions reached as part of the planning 
process needed to drive the focus of daily operations.
    Question. The recent SAIC report identified several areas in USCP 
that had poor management practices, while in other areas it found 
``best practices'' in managing work and resources. Why does this 
management imbalance exist in USCP and what is top management doing to 
increase the management capabilities of those areas deemed deficient?
    Answer. The focus of the SAIC analysis was not to conduct a review 
of management practices and management of work but rather the 
methodology utilized in the USCP developed Staffing Analysis. Based on 
the review of the USCP methodology, SAIC determined that there were 
pockets of best practices in the organization. For example the Office 
of Information Systems (OIS) and Security Services Bureau were cited as 
a ``best practices'' because they utilized processes to depict workload 
and mapped workload to FTE requirements based on benchmarking, 
historical data, and/or subject matter expertise. While these areas 
were determined to be best practices, other areas were not able to 
document workload due to lack of data or lack of experience to create 
workload data (i.e., work had not previously been accomplished and 
workload data was not available). However, SAIC did indicate, ``most 
offices under the Chief Administrative Officer are not positioned to 
operate as fully functioning support organizations.'' SAIC went on to 
state, ``most deficiencies have been recognized and steps are being 
taken to address them.'' The USCP has initiated the process to contract 
with outside consultants to review selected operations, within fiscal 
constraints. Areas included in the current review processes include 
training services, internal affairs, budget, accounting, and selected 
areas of protective services.
    Question. USCP asked for a considerable number of additional 
positions in the Comprehensive Staffing Analysis, yet SAIC could not 
validate the assumptions and criteria used by USCP for most of these 
positions. What is USCP doing to increase the assurance that the fiscal 
year 2005 positions can be justified and validated?
    Answer. SAIC's task was to review the methodology used to develop 
the USCP staffing needs. SAIC reviewed each position and provided a 
stoplight (red, yellow, green) indication as to whether appropriate 
supporting information was available to support the new positions. They 
did not perform workload analyses or comment on the need for the 
positions, but rather the level of supporting information they 
reviewed.
    While the USCP does concur with many parts of the SAIC evaluation, 
there are also several areas where the USCP does not agree with SAIC's 
findings. The inability of SAIC to fully validate the justifications of 
several positions, where the USCP thought it had strong justifications, 
is where most disagreements exist. The following outlines where some of 
the validation issues occurred:
  --In several cases Bureaus/Offices were asked by SAIC to produce 
        workload data in order to validate justifications. Such 
        workload data was sometimes not available, or not as thorough 
        as one would like it, primarily due to the fact that there has 
        not been sufficient staff necessary to collect workload 
        information, or because current systems are not able to capture 
        the necessary data. In many offices the current staffing levels 
        are only sufficient to perform the minimum requirements of the 
        office, not allowing for the additional time necessary to 
        collect workload data, manually if it is not available 
        automatically.
  --SAIC asked for outside staffing studies to confirm what Bureaus/
        Offices were telling them in terms of the need for additional 
        staff. While the USCP acknowledges that such studies are very 
        useful tools, and were used when available in putting together 
        the Comprehensive Staffing Analysis, the Department has not had 
        studies done on all areas of the Department, in large part due 
        to costs associated with having such studies performed.
  --In some instances Bureaus/Offices thought the information provided 
        to SAIC logically showed the need for additional staff, while 
        SAIC would not validate, or would only partially validate the 
        request.
  --SAIC was unable to validate a majority of personnel requests for 
        administrative staff, stating that this was due to the lack of 
        sufficient analysis of current and projected workloads. The 
        Department is aware that there has been a great need for more 
        administrative staff to alleviate higher-level staff from 
        having to undertake administrative duties. To validate the 
        staffing requests, SAIC stated that an in-depth workload 
        analysis would need to be performed, thereby enabling accurate 
        manpower requests. Once again, as stated above such studies are 
        very costly.
  --In the last GAO report reviewing progress being made in the areas 
        under the USCP's Chief Administrative Officer, several 
        references were made about the great need that the USCP had in 
        the management/administrative areas for additional staff. The 
        SAIC report on the other hand, could not fully validate many of 
        the justifications presented for additional staff in those same 
        areas, and which the Department believes are obvious staffing 
        needs.
    In addition to the additional information provided to both SAIC and 
GAO, the USCP has initiated the process of contracting with outside 
consultants to review selected operations, within fiscal constraints. 
Areas included in the current review process include training services, 
internal affairs, budget, accounting and selected areas of protective 
services.
    Question. You have requested $5.7 million for a ``sworn pay scale 
adjustment.'' What is this and what are the implications if we are 
unable to fund this initiative?
    Answer. The sworn pay scale adjustment rectifies inequities between 
grade and step levels in the sworn pay scale as a result of prior year 
adjustments to selected portions of the pay scale without appropriate 
consideration of the impact these adjustments had on the pay scale as a 
whole.
    At the direction of the Appropriations Committees, a study was 
completed that recommended a correction of the current inequities. The 
study determined that it would cost $11.4 million in fiscal year 2005 
to implement the proposed pay schedule on October 1, 2004. The $5.7 
million included in the fiscal year 2005 request would provide for an 
April 1, 2004 implementation. An additional $5.9 million (includes 
estimated 3.5 percent January 2006 COLA) would be required in fiscal 
year 2006 for the annualization of the adjustments.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. What are the long term capital costs required for the 
Capitol Police?
    Answer. Excluding facilities related items, most of the USCP 
capital costs relate to the replacement of systems or equipment such as 
vehicles, X-ray, magnetometers and cameras. The cyclical replacement 
costs of these capital items are included on an ongoing basis in our 
annual requests.
    In the area of information systems modernization, the USCP 
currently operates a set of administrative systems including personnel, 
time and attendance, scheduling and inventory control. These mainframe 
systems are a heterogeneous collection of legacy mainframe software 
applications and commercial off-the-shelf software applications. The 
legacy systems are costly to operate and difficult to maintain. The 
infrastructure has been managed and developed on an as-needed basis, 
often tied to specific applications.
    USCP has developed an Enterprise Architecture and IT Strategic Plan 
consistent with the modernization effort started in fiscal year 2001. 
These efforts target web-enabled, integrated applications running on 
one or more enterprise servers to include back-up servers soon to be 
located at the Alternate Computer Center (ACF).
    The modernization effort project is large and enterprise-wide in 
scope. As such, there are multiple phases with multiple subprojects 
that are coupled together. Users have both functional and non-
functional requirements that cross the enterprise IT Architecture, 
requiring close coordination and project management of multiple teams.
    The Office of Information Systems (OIS) created a Business Systems 
Modernization Office (BSMO). The BSMO mission is to provide technical, 
functional, managerial, and planning IT support to the USCP in the 
development of an Enterprise Architecture (EA), development of a 
Transition Plan as well as oversight of the ongoing implementation 
efforts.
    Phase 1 of the modernization effort provided for the implementation 
of Administrative systems. Time and Attendance, Personnel, Scheduling, 
Training and Fleet Management, as well as a Case Management System for 
Internal Affairs have been completed. All Law Enforcement Systems have 
been brought up to the same relational data base level.
    Phase 2 will encompass the implementation of an Asset Management 
System integrated to the Financial Management System to include budget. 
A Data Warehouse and Operational Data Store has been designed and 
implementation is to take place in early fiscal year 2005.
    Phase 3 will occur in fiscal year 2006 and provide for an Executive 
Information System (EIS) to assist in the recovery and use of data and 
information as necessary.
    One significant item that is on the horizon is the replacement of 
the radio systems. A new digital radio system, which will be used by 
the USCP and other Legislative Branch entities, is roughly, and 
preliminarily, estimated at $30 million. A contract is being negotiated 
with the Navy Aviation Systems Command to assess and make 
recommendations for the radio communications system upgrades. This 
study will include firmer estimated costs for their proposed 
recommendations. Over the past several years, we have been working 
closely with the Architect of the Capitol in the development of a 
facilities master plan for the USCP. The potential cost of new 
facilities and the cost of facility renovation are best addressed by 
the Architect of the Capitol.
    Question. Chief Gainer, could you please explain why you need $8.1 
million for replacement of escape hoods?
    Answer. When the current escape hoods were purchased they were the 
best on the market. However, the current masks are difficult to put on 
and it is impossible to communicate when they are donned. In October 
2003, the National Institute for Occupational Safety and Health (NIOSH) 
published national standards for escape hoods, and all further testing 
and approval will be accomplished against those standards. At this 
time, several companies have submitted escape hoods to NIOSH for 
testing under the new standards and product approvals are expected to 
occur during the second half of 2004. Approved escape hoods are 
expected to be available for purchase in 2005. It is anticipated that 
the escape hoods that meet the new standards will be easier for adults 
and children to wear and will solve the communications issue. If as 
anticipated new masks are on the market in 2005 that meet the NIOSH 
standards, a preliminary decision was made to replace all the escape 
hoods rather that doing it in a piecemeal fashion and give someone an 
older, less viable hood. The cost of replacing all 45,000 escape hoods 
is estimated to be $8.1 million.
    Question. What training requirements are not being met at the FLETC 
facility at Cheltenham?
    Answer. The USCP is currently conducting follow-on basic and in-
service training at the FLETC facility at Cheltenham, Maryland. We are 
also negotiating a MOA with the FLETC to utilize the firearms range for 
re-certifications, and will utilize the driving range when it is 
complete this fall. Some of our long distance rifle training needs, 
which are best conducted in an outside environment, will not be met at 
the Cheltenham facility. Also, basic recruit training, which is 
conducted by the FLETC in Georgia, was never intended to move to 
Cheltenham and will not be relocated to the Cheltenham facility. We 
continue to work with FLETC regarding issues on availability of the 
facilities as well as funding requirements, and we expect to have a 
Memorandum of Agreement finalized soon. We have also been working with 
the Appropriations Committees regarding the resolution of the issues.
    Question. What is the cost for building a separate firing range for 
the Capitol Police?
    Answer. The Architect of the Capitol's budget request contains $12 
million for the design and construction of a 36-point 50-yard 
underground firing range. As conceived, the range would be co-located 
and built with the Off-site Delivery Facility. If the scheduling 
requirements, addressed in the above question, for all USCP firearms 
training and re-certification can be accommodated by the FLETC, the 
USCP will not require the facility requested by the AOC. However, if 
the facility availability issues are not worked out, the construction 
of a new firing range is critical to the operations of the USCP.
    Question. It was my understanding that the Capitol Police have free 
use of the firing range at Cheltenham. Why do you need a separate 
firing range?
    Answer. Our primary issue regarding the use of FLETC firing range 
at Cheltenham is one of access and accommodating our needs for firearms 
training and re-certification. As indicated above, the original 
partnership with the Federal Law Enforcement Training Center (FLETC) on 
the new training facility in Cheltenham, Maryland included 26 agencies. 
With the creation of Department of Homeland Security and subsequent 
merger with Treasury/FLETC, the facility now serves 70 plus agencies 
but the size of the range has not grown proportionally. If our training 
needs cannot be met by the FLETC, the construction of a new firing 
range is critical to our operations.
    FLETC has indicated that it is expecting a reimbursement for firing 
range use by all federal agencies and we have included funds for this 
purpose in our fiscal year 2005 budget request.
    Question. What are the costs associated with the Capitol Police 
having access to the Cheltenham facility? Are theses costs being 
covered by the Capitol Police or by the Department of Homeland 
Security?
    Answer. Although we are still working with the FLETC on access and 
reimbursement issues, based on reimbursement cost rates FLETC provided 
in the Fall of 2003, we estimated it will cost the USCP $1,032,000 in 
fiscal year 2005 to cover all firearms training. This amount is 
included in our fiscal year 2005 budget request. However, we now 
understand that FLETC may be lowering their rates. A Memorandum of 
Agreement (MOA) between the USCP and FLETC is being negotiated and it 
should be completed soon. This MOA will spell out who will pay for what 
cost and when cost will begin being paid by the USCP. In addition to 
the firing range reimbursements, these costs will include the 
operational and maintenance costs of Building 31, the primary training 
facility that we occupy, and any other resources utilized by the USCP 
at the Cheltenham facility. The FLETC has estimated the cost to be 
$281,400 for fiscal year 2004. FLETC will also expect reimbursement for 
the driving range when it opens and a daily per person user fee, 
currently set at $5, for the use of their other facilities at 
Cheltenham. We do anticipate reimbursing the FLETC for the operational 
and maintenance, driving range and other facility usage fees.
    Question. What is the status of filling the vacancy of the Chief 
Administrative Officer?
    Answer. Mr. Anthony Stamilio was selected for the CAO position and 
reported for work on May 4, 2004.
    Question. What are your priorities for improving administrative 
operations of the Capitol Police?
    Answer. Our first priority is to fill all the vacant civilian 
positions including the 75 new positions that were provided in fiscal 
year 2004. We have hired outside consultants to jumpstart our hiring 
and human resources operations. We are committed to having 
substantially all these positions filled by the end of the fiscal year. 
As part of our strategic planning effort we have developed performance 
plans and measures to continue the improvement of our administrative 
operations. We continue to move forward with our information technology 
systems modernization related to law enforcement databases and 
administrative systems as well as modernizing human resources and 
continuing with improvements with financial management operations.
    Question. We recently received SAIC's evaluation of your 
Comprehensive Staffing Analysis. It seems that the Capitol Police could 
benefit from the development of a comprehensive manpower plan that 
would determine the number and kinds of positions, both existing and 
new, needed to meet the requirements identified in the threat and 
vulnerability assessments as well as the strategic plan. Are there any 
efforts underway to undertake the preparation of such a plan? What 
would be required to produce a manpower plan that would clearly relate 
manpower requirements to a congressionally approved strategic plan that 
clearly ties to threat and vulnerabilities?
    Answer. One of the priorities of the new CAO is to take a strategic 
view of human capital management. Based on GAO recommendations, we are 
currently exploring the benefits and processes of strategic human 
capital planning, synchronized with the USCP Strategic Plan. The threat 
environment, evolving tactics and technology will drive requirements 
for future manpower adjustments. Our tentative plan is to assess 
functional slices of the organization in light of the above ``drivers'' 
to determine the manner in which the organization will operate in the 
future. The manpower requirements, to include numbers and skill sets 
will evolve from this analysis. Initial assessments should begin in 
fiscal year 2005.
    Question. Do you feel that a perimeter security fence is a good 
idea? Do you think it should include both the Capitol and the office 
buildings?
    Answer. All of our major security surveys (Secret Service, DTRA, 
SAIC) since 1983 have raised the issue of a perimeter fence to enhance 
Capitol Complex security. Strictly from a security standpoint, we agree 
that a fence is a good idea. Based on the current environment and 
events that are happening around the world, we believe that the 
perimeter security fence issue should be revisited and that here should 
be a discussion on its merits and whether we want to accept the risks 
as they exist today. This discussion should include a perimeter 
security fence around the Capitol and the office buildings. We realize 
that other factors, including perceived openness and cost, need to be a 
part of this discussion. The resolution of this issue is directly 
related to the manpower requirements of the USCP.
    Question. Are you working on a plan to ease staff entry into the 
Senate buildings? I have noticed on many occasions that the lines are 
out the doors and on the sidewalks at many of the Hart and Dirksen 
Building entrances.
    Answer. We have recently made several changes to reduce the line at 
entrances to the Senate buildings. We are designating several entrances 
as ``staff only'' until 10:00 a.m. and outside officers are directing 
visitors to lower volume entrances. We will continue to monitor the 
situation and make adjustments are needed.

                          SUBCOMMITTEE RECESS

    Senator Campbell. If there is nothing further, the 
subcommittee will next meet at 11 a.m., Thursday, April 8 to 
hear from the Secretary of the Senate and the Architect of the 
Capitol.
    [Whereupon, at 3 p.m., Wednesday, March 31, the 
subcommittee was recessed, to reconvene at 11 a.m., Thursday, 
April 8.]

</pre></body></html>
